                 OFFICE OF THE INSPECTOR GENERAL
         CORPORATION FOR NATIONAL AND COMMUNITY SERVICE




                        Incurred Cost Audit of Grants Awarded
                                        to the
                        Oregon Community Service Commission
                                  Portland, Oregon



                             OIG Audit Report Number 01-04
                                     June 26,2001


                                   Financial Schedules
                                           and
                               Independent Auditor's Report
                                      For the Period
                            January 1, 1994 to August 3 1,2000




                                        Prepared by:

                                      KPMG LLP
                                  2001 M Street, N.W.
                                 Washington, D.C. 20036

                          Under DOL Contract No. J-9-G-8-0022
                            CNS OIG MOU NO. 98-046-5003
                               Task Order No. B9GOV20 1



This report was issued to Corporation management on September 27, 2001. Under the laws and
regulations governing audit follow up, the Corporation must make final management decisions on
the report's findings and recommendations no later than March 26, 2002, and complete its
corrective actions by September 27,2002. Consequently, the reported findings do not necessarily
represent the final resolution of the issues presented.
                                                                                           CORPORATION
                                  Office of Inspector General
                        Corporation for ~ a t i o n aand
                                                     l Community Service                   FOR NATIONAL
                                      Audit Report 01-04                                    SERVICE
                          Incurred Cost Audit of Grants Awarded to the
                             Oregon Community Service Commission


Introduction

The Corporation for National and Community Service, pursuant to the authority of the National and
Community Service Act, awards grants and cooperative agreements to state commissions, nonprofit
entities, tribes and territories to assist in the creation of full and part time national and community
service programs. Currently, in accordance with the requirements of the Act, the Corporation awards
approximately two thirds of its AmeriCorps Staternational funds to state commissions. The state
commissions in turn fund, and are responsible for the oversight of subgrantees who execute the
programs. Through these subgrantees, AmeriCorps Members perform service to meet educational,
human, environmental, and public safety needs.
The Oregon Community Service Commission has received funding from the Corporation since 1994.
During fiscal year 1999, CNS OIG received reports of serious financial management problems at the
Commission. We provided that information to Corporation management, and they responded to the
information with visits by Corporation staff and by sending technical assistance providers to the
Commission. Having received information from the site visits and the reports by the technical
assistance providers, CNS OIG decided that we should follow-up to determine whether the Federal
funds provided to the Commission had been appropriately spent and accounted for. We engaged
KPMG to perform the audit of the Oregon Community Service in two stages -- a pre-audit survey and
a full scope incurred cost audit. The accompanying report from KPMG provides the results of the
incurred cost audit.
The pre-audit survey revealed serious deficiencies in the Commission's fiscal administration and
monitoring functions for which corrective actions had only recently begun, and that not all of the
corrective actions were being effectively implemented. KPMG also reported that it had found no
evidence that the Corporation took any action to hold the Commission fiscally accountable until June
1999, when, as a result of problems identified during site reviews conducted in March and April
1999, it placed the Commission on a pre-approval basis for drawing down grant funds.
Despite these conditions, KPMG's survey work indicated that it might be possible to audit the
Commission's records. The firm designated the Commission's financial management and subgrantee
oversight as high risk areas and recommended a full-scope audit of CNS funding for all program
years through FY 2000. The survey report included 19 recommendations (included in this report as
Exhibit D) for corrective action directed to the Commission and the Corporation and was issued as
CNS OIG Audit Report 01-03 in October 2000.
KPMG began the full-scope incurred cost audit immediately thereafter. Their audit revealed that the
Commission's grants and program management operations and its financial management and
reporting were, in fact, material weaknesses resulting in missing subgrantee financial information,
incomplete records and other information at the subgrantee level on AmeriCorps Member eligibility




                                                                                        Inspector General
                                                                                        1201 New York Avenue, NW
                                                                                        Washington, DC 20525
and service, and erroneous financial reporting by the Commission and certain of its subgrantees. In
their report, KPMG concluded that:
   Adequate procedures for monitoring financial activity and related compliance with laws and
   regulations are not in place. Procedures for ensuring that verifiable records are maintained to
   support reported results in accordance with program requirements were not effective during the
   period under audit (from January 1, 1994 through August 3 1, 2000).
    An effective system for ensuring quality control of accounting and financial reporting activities
    during the period under review was not in place. Additionally, a comprehensive process for
    assessing the system of internal control for safeguarding assets, producing reliable financial
    reports, and complying with laws and regulations was not in place.
    The Commission has not established a system to assure that subgrantee performance information
    submitted to the Corporation is valid and reasonable.
The audit also revealed more than $3 million in questioned costs. Questioned costs are costs for
which there is documentation that the recorded costs were expended in violation of Federal laws,
regulations or the specific conditions of the award, costs which require additional support by the
grantee, or which require interpretation of allowability by the Corporation.
The significance of the questioned costs, the lack of controls over financial reporting and subgrantee
monitoring, and the nature of the specific findings that are identified in the report precluded KPMG
from providing an auditor's opinion (assurance) on the more than $12 million in costs reported and
claimed by the Commission from January 1994 through August 2000.
CNS OIG has reviewed the report and the work papers supporting the auditors' conclusions. We
agree with the findings and recommendations presented.
The Oregon Community Service Commission's and the Corporation's responses, which express
certain disagreements with this report are included in their entirety as Appendices A and B,
respectively. The Commission's response also maintains that it has developed policies and
procedures to address many of the deficiencies reported. Both the pre-audit survey report and the
audit report acknowledge that the Commission has been developing policies and procedures.
However, because they were not in place during the audit period, KPMG was unable to test them.
CNS OIG and KPMG considered the responses and made certain changes to the report as described in
Appendices C and D in which KPMG discusses the Commission's and the Corporation's comments.
In addition to the recommendations contained in KPMG's report, we recommend that the Corporation
increase its oversight and monitoring of the Commission. As part of the oversight, we recommend
that the Corporation provide the guidance and technical assistance necessary to ensure that
Commission staff have a clear understanding of the accounting, funds control, financial management
and reporting, as well as monitoring requirements that are mandated by Federal regulations and the
Corporation's grant provisions. We also recommend that, as part of its monitoring, the Corporation
evaluate the Commission's new procedures and controls with testing at both the Commission and at
the subgrantee level to determine whether they are effective.
                                       Office of the Inspector General
                              Corporation for National and Community Service
                               Incurred Cost Audit of Grants Awarded to the
                                 Oregon Community Service Commission
                                               Portland. Oregon


                                                       Table of Contents




INDEPENDENT AUDITORS' REPORT .................................................

Summary ........................................................................................................

Report on the Schedules of Award Costs ......................................................

Report on Internal Control Over Financial Reporting ...................................

     Material Weaknesses
        Grants and Program Management .....................................................
        Financial Management and Reporting ...............................................

     Other Reportable Condition
        Program Performance Reporting .......................................................

Report on Compliance ...................................................................................

     AmeriCorps Grant

           Compliance Findings Resulting in Questioned Costs ........................
           Other Compliance Findings ...............................................................

     Administrative and Program Development and Training (PDAT) Grants

           Compliance Findings Resulting in Questioned Costs ........................
           Other Compliance Findings ...............................................................

Responsibilities
                                           ...
     Management's Responsibility ..................................................................
     Auditors' Responsibility ..........................................................................

Distribution ....................................................................................................
EXHIBITS

FINANCIAL SCHEDULES:

  Exhibit A - Schedule of Award Costs:
     AmeriCorps ........................................................................................

       Exhibit A-1 - Schedule of Award Costs:
       Portland Area Council of Camp Fire .................................................

        Exhibit A-2 - Schedule of Award Costs:
        Friends of the Children ......................................................................

       Exhibit A-3 - Schedule of Award Costs:
       Northwest Youth Corps .....................................................................

        Exhibit A-4 - Schedule of Award Costs:
        Legal Aid Services of Oregon ...........................................................

        Exhibit A-5 - Schedule of Award Costs:
        Enterprise Foundation ........................................................................

        Exhibit A-6 - Schedule of Award Costs:
        Oregon Coalition Against Domestic and Sexual Violence ................

   Exhibit B - Schedule of Award Costs:
      Administration ...................................................................................

   Exhibit C - Schedule of Award Costs:
      Program Development and Training ..................................................

   Notes to Schedules of Award Costs .........................................................

   Exhibit D - Pre-Audit Survey Findings and Recommendations .............

APPENDICES

Responses to Report

   Oregon Community Service Commission .............................................. Appendix A
   Corporation for National and Community Service .................................. Appendix B

KPMG's Comments on Responses to Report by the

   Oregon Community Service Commission ............................................... Appendix C
   Corporation for National and Community Service ..................................   Appendix D
             2001 M Street, N.W
             Washington, D.C. 20036




                                                       Independent Auditors' Report



Inspector General
Corporation for National and Community Service:

At your request, KPMG LLP (KPMG) performed an incurred cost audit of the costs
claimed by the Oregon Community Service Commission and its subgrantees from
January 1, 1994 through August 3 1,2000. The objectives of the incurred cost audit were
to determine whether: (1) financial reports prepared by OCSC presented fairly the
financial condition of the award; (2) the internal controls were adequate to safeguard
Federal funds; (3) OCSC and its subgrantees had adequate procedures and controls to
ensure compliance with Federal laws, applicable regulations, award conditions and that
Member services were appropriate to the programs; (4) the award costs reported to the
Corporation were documented and allowable in accordance with the award terms and
conditions; and (5) OCSC has established adequate oversight and informed subgrantees
of the Corporation's GPRA goals.

SUMMARY

Our report expresses a disclaimer of opinion on the Commission's Schedules of Award
Costs (Exhibits A through C) due to the lack of controls over financial reporting and
compliance, as well as, the nature of the findings identified, and the significance of the
questioned costs identified in relation to total costs incurred.

Our consideration of internal control over financial reporting, identified the following
conditions that we consider to be material weaknesses:

       Grants and Program Management - Adequate procedures for monitoring the
       financial activity and related compliance with laws and regulations of the
       Commission's subgrantees are not in place. Procedures for ensuring that
       verifiable records are maintained to support reported results in accordance with
       program requirements were not effective.

       Financial Management and Reporting - An effective system for ensuring
       quality control of accounting and financial reporting activities at the Commission
       for the period under review was not in place. Additionally, a comprehensive
       process for assessing the system of internal control for safeguarding assets,
       producing reliable financial reports, and complying with laws and regulations was
       not in place.




1111           K P M G LLP K P M G L L P a U S r n t e d lability ~ a l t r l e r s h p ,s
               a memher of K P M G Internatonal a Swss a s c o c a t o n
Additionally, we noted the following matter that we consider to be a reportable condition:

       Program Performance Reporting - The Commission has not established a
       system to review performance measurement data compiled and submitted to the
       Corporation for validity and overall reasonableness.

Our tests of compliance with laws and regulations disclosed instances of noncompliance
resulting in total questioned claimed costs of $1,908,153 and match of $1,300,702 as well
as $615,500 related to Education Awards that may have been awarded to ineligible
Members.

The following sections comprise our report on the Schedules of Award Costs, our
consideration of the Commission's internal control over financial reporting, our tests of
the Commission's compliance with certain provisions of applicable laws, regulations, and
the provisions of the Corporation's grant awards, and the Commission's and our
responsibilities.

REPORT ON THE SCHEDULES OF AWARD COSTS

We were engaged to audit the accompanying Schedules of Award Costs (Exhibits A
through C) for the Oregon Community Service Commission, a grantee of the Corporation
for National and Community Service, for the awards and award periods listed below:

Program                 Award Number          Award Period            Audit Period

AmeriCorps              94ASCOR03 8            8/1/94 - 12131/00      1/1/94 - 813 1/00

Administration          94SCSOR037             1120194 - 12131/98     1/1/94 - 813 1/00

PDAT*                   95PDSOR037             1/1/95 - 12/31/98      1/1/94 - 8/31/00

* Program Development and Training
As discussed in our report on internal control over financial reporting and our report on
compliance, the Commission did not have an adequate system in place, during the period
under audit, to monitor the financial and programmatic activities of its subgrantees.
Additionally, certain of the Commission's subgrantees did not maintain adequate
accounting records and/or AmeriCorps Program files, and adequate evidential matter in
support of recorded transactions was not available in all cases. As a result, we identified
instances of noncompliance and questioned costs which are material to the Schedules of
Award Costs.

Further, there were several changes in employees and key management personnel during
the period under audit, and certain former subgrantees no longer participate in or
administer the AmeriCorps Program. These circumstances have created a lack of
continuity in the financial management and programmatic compliance systems, for both
the Commission and its subgrantees. Present management has been unable to furnish us
with knowledgeable representation of facts and circumstances regarding certain
transactions arising during the period under audit. It was impracticable to extend our
procedures sufficiently to determine the extent to which the Schedules of Award Costs
may have been affected by the foregoing conditions.

Because of the matters discussed in the two preceding paragraphs, the scope of our work
was not sufficient to enable us to express, and we do not express an opinion on the
accompanying Schedules of Awards Costs for the period January 1, 1994 to August 3 1,
2000.

The Schedules of Award Costs by subgrantee (Exhibits A-1 through A-6) are presented
for additional analysis of the Consolidated Schedule of Award Costs (Exhibit A) rather
than to present the costs incurred by the individual subgrantees. Because of the matters
discussed in the second and third preceding paragraphs, the scope of our work was not
sufficient to enable us to express, and we do not express an opinion on this information.

REPORT ON INTERNAL CONTROL OVER FINANCIAL REPORTING

We noted certain matters, described below, involving internal controls over financial
reporting that we consider to be reportable conditions under standards established by the
American Institute of Certified Public Accountants. We believe the reportable conditions
identified as items 1 and 2 described below are material weaknesses. These conditions
were considered in determining the nature, timing, and extent of the procedures to be
performed in our audit of the Schedules of Award Costs of OCSC for the period January
1,1994 to August 3 1,2000.

Our consideration of internal controls would not necessarily disclose all matters in
internal control over financial reporting that might be reportable conditions and,
accordingly, would not necessarily disclose all reportable conditions that are also
considered to be material weaknesses. Reportable conditions involve matters coming to
our attention relating to significant deficiencies in the design or operation of the internal
controls, that, in our judgment, could adversely affect the Commission's ability to record,
process, summarize, and report financial data consistent with the assertions of
management in the Schedules.

A material weakness is a reportable condition in which the design or operation of one or
more of the internal control structure elements does not reduce to a relatively low level
the risk that errors or irregularities in amounts that would be material in relation to the
financial schedules being audited may occur and not be detected within a timely period
by employees in the normal course of performing their assigned functions.

The objective of our audit was not to provide assurance on the Commission's internal
controls over financial reporting. Consequently, we do not provide an opinion on internal
control over financial reporting.
The following paragraphs present the reportable conditions identified during our incurred
cost audit of the Schedules of Award Costs. Reportable conditions identified during the
pre-audit survey of the OCSC were included in OIG Audit Report Number 01-03' and are
presented as Appendix D. Due to the short period of time between the completion of the
pre-audit survey and the commencement of the incurred cost audit, the Commission has
not had sufficient time to take all necessary corrective actions on the matters discussed in
the pre-audit survey. We recommend the Corporation follow up with the Commission to
ensure adequate corrective action is taken on those recommendations and on the matters
discussed below.

Material Weaknesses

1. Grants and Program Management

The Corporation, pursuant to the authority of the National and Community Service Act of
1990, as amended, awards grants and cooperative agreements to State Commissions,
nonprofit entities and tribes and territories to assist in the creation of full and part time
national and community service programs. Through these grantees, AmeriCorps
Members perform service to meet educational, human, environmental, and public safety
needs throughout the nation. In return for this service, eligible Members may receive a
living allowance and post service educational benefits. State Commissions provide
AmeriCorps funding to approved applicants for service programs within their states and
are responsible for monitoring these subgrantees' compliance with grant requirements.
These Commissions are also responsible for providing training and technical assistance to
AmeriCorps State and National Direct programs and to the broader network of service
programs in the state. These Commissions are prohibited from directly operating national
service programs.

The Commission is responsible for evaluating whether its subgrantees comply with legal,
reporting, financial management and grant requirements and ensuring follow through on
issues of noncompliance. Prior to February 1998, no documentation exists to support
any site visits the Commission may have made to subgrantee locations. Between
February and December 1998, the Commission was understaffed and experienced a
significant amount of personnel turnover. During that time, no on-site monitoring visits
occurred. Prior to 1999, there is no evidence that a review of and follow up on
subgrantees' audit reports were conducted to identify control weaknesses or instances of
material noncompliance. Additionally, the Commission did not have a comprehensive
program to monitor the programmatic activity of all grantees to ensure adequate attention
was given to compliance issues and that documentation was retained as evidence of
compliance. Subgrantees were not monitored as required. As a result, we identified
control weaknesses and instances of noncompliance resulting in significant questioned
costs.

I
  OIG Report 01-03; Pre-Audit Survey of the Oregon Community Service Commission was issued October
16, 2000. For additional information, including the responses by OCSC and CNS, please request copies of
this report from CNS OIG.
We recommend that the Commission take the following actions to improve its grants and
program management processes.

          Review and implement the recently developed policies and procedures to
          monitor the programmatic and financial activity of all subgrantees. Ensure
          adequate attention is given to compliance issues which may not be addressed
          even if a Single Audit in accordance with OMB Circular A-133, Audits of
          States, Local Governments and Non-profit Organizations, has been performed
          for any specific subgrantee, and that monitoring activities include site visits
          performed on a periodic basis, the frequency of which should depend on the
          level of risk assessed by the Commission.

           Continue developing its OMB Circular A-1 33 audit report tracking database
           to provide reasonable assurance that the Commission receives and reviews the
           audit reports from all subgrantees subject to such audits, and appropriate
           follow up on deficiencies noted in these reports is made in a timely manner.

2. Financial Management and Reporting

The Commission is required to select organizations for award, administer Corporation
grant funds and monitor subgrantees for financial activities and compliance with laws,
regulations and provisions of grant awards. The Corporation's regulations describe
standards for financial management systems that must be maintained by State
Commissions.

However, our audit procedures revealed that the Commission had inadequate procedures
for maintaining internal controls that provide for accurate, current, and complete
disclosure of the financial and programmatic results. Financial management reporting
issues identified during our audit included the following:

       There were no procedures in place to ensure financial information submitted by
       subgrantees to the Commission was accurate and complete. Further, financial
       management processes were not in place at the Commission to ensure proper
       accounting for and reporting of Corporation funds on the consolidated Financial
       Status Reports (FSRs) submitted by the Commission to the Corporation.

       Financial Status Reports (FSRs) were not submitted as required or reporting
       timeframes were not met.

       Prior to March 1998, Financial Status Reports (FSRs) were not reviewed to
       ensure that errors on FSRs were identified and subsequently corrected.

We recommend that OCSC continue to develop a comprehensive set of policies and
procedures for all grants by the Corporation to ensure that day-to-day procedures are
documented to guide personnel in required tasks. Policies and procedures should address
all aspects of the Commission's financial activities. Specifically, the accounting,
reporting and monitoring of funds received and disbursed by the Commission.
Procedures should also encompass requirements for review and monitoring of the
financial activities of subgrantees. These procedures, once developed, should be
immediately implemented.

Other Reportable Condition

3. Program Performance Reporting

The Corporation uses the Government Performance and Results Act of 1993 (GPRA),
Public Law 103-62, as the legislative framework to set strategic goals, measure
performance, and report the extent to which goals were met. To measure program
performance, the Corporation requests its grantees to provide end outcome information
for programs such as ArneriCorps. However, the Commission does not test or otherwise
review the end outcome information for validity or reasonableness prior to submission to
the Corporation. Additionally, it provides no oversight or guidance to its subgrantees
regarding the performance reporting information submitted to the Corporation.

We recommend that the Commission provide guidance to subgrantees and monitor the
validity and reasonableness of performance reporting information that is provided to the
Corporation.

REPORT ON COMPLIANCE

The results of our tests of compliance disclosed the following instances of noncompliance
and related questioned costs as reflected in Exhibits A through C, for which the ultimate
resolution cannot presently be determined. Accordingly, no adjustment has been made to
the amounts included on the Schedules of Award Costs for any potential disallowance by
the Corporation. Questioned costs identified were developed using either actual costs (in
those instances that actual costs were provided by the Commission and its subgrantees) or
estimated costs (in those instances that actual costs were not readily available).

ArneriCorps Grant

A. Compliance Findings Resulting in Questioned Costs

The specific amounts questioned related to the findings discussed below are included in
total Member support costs questioned on Exhibit A or the respective Schedule of Award
Costs by Subgrantee. A reconciliation of amounts identified as questioned costs in the
following paragraphs to those reflected in Exhibits A-1 through A-6 is included in the
Notes to Schedules of Award Costs.
I . Lack of adequate financial records for the Commission 's sub-grant to the Oregon
    Coalition Against Domestic and Sexual Violencefor all program years (Questioned
    Claimed Costs of $691,114, and Questioned Match Amounts of $190,015)

During our review of the Oregon Coalition Against Domestic and Sexual Violence
(OCADSV), sample items were selected for testing from detailed cost schedules that
were expected to support amounts in the general ledger for all program years. However,
a general ledger was not provided and amounts reported in the detailed schedules did not
agree to claimed costs for all program years. Additionally, our auditing procedures
confirmed the pervasive nature of non-compliance in general. For example, supporting
documents were not provided for match amounts selected. Payroll and Member costs test
work revealed numerous instances of lack of supporting documentation. Consequently,
we were unable to determine the accuracy or allowability of the costs claimed by
OCADSV. Also, due to passage of time, lack of records and changes in staff, we were
unable to determine and document the internal controls that were in existence during the
grant period. As a result of the foregoing, total costs claimed for all program years have
been questioned.

We were unable to extract the amounts for the Education Awards related to OCADSV in
the Corporation's Roster, due to the lack of differentiation between grant award numbers
which are shared between OCADSV and Legal Aid Services of Oregon (another
subgrantee of the Commission), that is a partner. However, the Education Awards
provided by the Corporation for OCADSV's Members are also questioned.

Subgrantees must maintain financial management systems that include standard
accounting practices, sufficient internal controls, a clear audit trail and written cost
allocation procedures as necessary. Financial management systems must be capable of
distinguishing expenditures attributable to this Grant from expenditures not attributable to
this Grant. This system must be able to identify costs by programmatic year and by
budget category and to differentiate between direct and indirect costs or administrative
costs. Grantees' financial management responsibilities are detailed fiu-ther in OMB
Circular A-1 02 and its implementing regulations (45 C.F.R. 2541) or A- 110 and its
implementing regulations (45 C.F.R. 2543), as applicable.

    Recommendation

The Corporation should follow up to determine whether these amounts should be
disallowed and recovered. No other recommendation is considered necessary at this
time, as the sub-grant expired in 1997 and the ArneriCorps program is no longer
administered by this subgrantee.
2. Documentation to support AmeriCorps Members' terms of sewice was not
   maintained (Questioned Claimed Costs of $61,742, Questioned Match Amount of
   $10,898, and Questioned Education Awards of $48,038)

Documentation to support that the term of Member service was properly completed to
support the related Education Award received was not maintained by the respective
subgrantees as shown below. ArneriCorps Special Provision 8 (a) requires, in part, that
each program must maintain records to verify that the Member successfully completed
the program requirements with a minimum of 1700 hours of participation as a full-time
Member, 900 hours of participation as a part-time Member, or 300-900 hours of
participation as a reduced part-time Member. Lack of documentation to support
successful completion of hours of service could ultimately result in questioned Education
Awards.

Lacking Documentation         Subgrantee                                   Member Files
For:                                                                            Lacking
                                                                         Documentation1
                                                                             Sample Size
Service Hour
                              Multnomah County District Attorney                    9 of 16
Requirements
                              Central Oregon Community College                      6 of 73

                              Friends of the Children                               1 of 18

                              Enterprise Foundation                                 1 of 19


       Recommendation

We recommend that the Commission establish and implement procedures to ensure that
each of its subgrantees maintain records (approved timesheets) to support completion of
the required service hours.

3. Lack of documentation

           Eligibility requirements were not met (Questioned Claimed Costs of
           $1,108,920, Questioned Match Amounts of $444,028, and Questioned
           Education Awards of $5 72,991)

Sufficient documentation to verify that Members met eligibility requirements was not
maintained by the subgrantees listed below, in certain instances. AmeriCorps Special
Provision No. 14 states, in part, that "the Grantee must maintain verifiable records which
document each Member's eligibility to serve based upon citizenship or lawful permanent
residency, birth date, level of educational attainment, date of high school diploma or
equivalent certificate (if attained)." As a result of the foregoing, living allowances paid
for potentially ineligible Members and charged to the Corporation grants are considered
questioned, as well as any related Education Awards that may have been provided for
these Members.

Because of the significant number of exceptions noted below for Central Oregon
Community College, we have questioned all Member costs incurred for this subgrantee
and all related Education Awards issued by the Corporation.

Lacking                  Subgrantee                                      Member Files
Documentation For:                                                            Lacking
                                                                        Documentation1
                                                                           Sample Size
Citizenship or lawful
                        Central Oregon Community College                         12 of 73
permanent residency
                        Oregon Department of Human Resources                      8 of 26

                        Northwest Youth Corps                                     6 of 22

                         Friends of the Children                                  2 o f 18

                         Legal Aid Services of Oregon
High school diploma
                         Central Oregon Community College
or equivalent
certificate
                         Enterprise Foundation

                         Oregon Department of Human Resources

                         Northwest Youth Corps                                    6 of 22

                         Friends of the Children                                  3 of 18

                         Legal Aid Services of Oregon                             1 of21
Proof of age
                         Central Oregon Community College                        13 of 73

                         Oregon Department of Human Resources                     4 of 26


           Documentation to support time and attendance records and proper
           authorization of timesheets was not evident (Questioned Claimed Costs of
           $18,682, and Questioned Match Amounts of $3,050)

Member timesheets to support hours worked were not maintained by the Enterprise
Foundation (one of 19 sampled) and Multnomah County District Attorney (two of 26
sampled). AmeriCorps Special Provision No. 14 (a) states, in part, that "time and
attendance records must be signed by both the Member and by an individual with
oversight responsibilities for the Member."

Additionally, the subgrantees listed below could not locate Member, or staff timesheets
for selected pay periods, or timesheets for selected pay periods were not signed by the
individual or an authorizing official. AmeriCorps General Provision No. 21 (c), requires,
in part, that any staff salaries and wages charged directly to a Grant or charged to
matching funds must be supported by a signed time and attendance report for each
individual employee regardless of position. The Member's or employee's signature
represents acknowledgement that the hours reported reflect an accurate depiction of the
hours served for the program. A supervisor's signature indicates approval and
concurrence of the hours recorded by the Memberlemployee.

Lacking Documentation          Subgrantee                                    Transactions
For:                                                                             Lacking
                                                                           Documentation1
                                                                              Sample Size
MemberlStaff Timesheets
                               Friends of the Children                              5 of 45
for Selected Pay Period(s)
                               Legal Aid Services of Oregon                         3 of 45

                               Enterprise Foundation                                3 of 45

                               Portland Area Council of Camp Fire      1            1 of 48
Approved MemberIStaff
                               Friends of the Children
Timesheets
                               Legal Aid Services of Oregon                         3 of 45



MemberIStaff Timesheet
                               Northwest Youth Corps
                                                                       I            2 of 34

                               Northwest Youth Corps
Was Not Signed By the
Individual
                               Legal Aid Services of Oregon                         1 of 45


           Member living allowance or staffsalary/wage could not be verzjied due to
           lack of an approved salary/wage rate or Member Contract (Questioned
           Claimed Costs of $1 8,582, and Questioned Match Amounts of $2,999)

The following subgrantees did not maintain contracts which indicate approved living
allowance information or staff pay rate information in the respective Member or staff
files. AmeriCorps General Provision No. 2 1 (c) states that subgrantee must keep time
and attendance records on all AmeriCorps Members in order to document their eligibility
for in-service and post-service benefits. Time and attendance records must be signed by
both the Member and by an individual with oversight responsibilities for the Member.
AmeriCorps General Provision No. 2 1 (c) also requires that staff salaries and wages
charged directly to this grant or charged to matching funds must be supported by signed
time and attendance records for each individual employee regardless of position, and by
documented payrolls approved by a responsible official of the subgrantee.

Lacking Documentation               Subgrantee                                Transactions
For:                                                                              Lacking
                                                                            Documentation1
                                                                               Sample Size
MemberIStaff Approved
                                    Friends of the Children                         17 of 45
Living Allowance Agreement
or Staff Pay Rate
                                    Enterprise Foundation                           11 of45

                                I   Legal Aid Services of Oregon
                                                                        I            3 of 45   /
                                /   Northwest Youth Corps               I            2 of 34   1
Member Living Allowance
                             Northwest Youth Corps                                   7 of 34
Allocation to Program
Member Living Allowance did
                             Legal Aid Services of Oregon                            4 of 45
not Agree to Member Contract

       Recommendation

The Commission should require subgrantees to provide documented procedures to
enhance and formalize the file maintenance process currently in place. Procedures
should include, where applicable, a checklist for all required documentation, a training
program for personnel who handle Member files, and a periodic review process where
selected Member files are checked for compliance with documented procedures. In
addition, the Commission should routinely test Member file maintenance as part of its
site monitoring procedures.

We have been informed that, subsequent to the issuance of the pre-audit survey report,
the Commission developed policies and procedures to periodically review Member files
for required documentation. However, these policies and procedures were not in place
during the period covered by our audit and were not subject to tests of effectiveness
during the course of the audit.

4. Documentation to support selectedpayments claimed under the grant was not
   maintained (Questioned Claimed Cost of $8,092)

One subgrantee, Friends of the Children, recorded payments amounting to $8,092 that
lacked adequate support. These represented payments for operational costs of $5,092 and
payments to an organization classified as "Evaluation" amounting to $3,000.
AmeriCorps General Provision No. 21 (b) states that subgrantees must maintain adequate
supporting documents for every expenditure (Federal and Non-Federal) and in-kind
contributions made under this Grant. Costs must be shown in books or records (e.g. a
disbursement ledger or journal), and must be supported by a source document, such as a
receipt, travel voucher, invoice, bill, in-kind voucher, or similar document.

       Recommendation

The Corporation should follow up to determine whether these amounts should be
disallowed and recovered from the subgrantee. No other recommendation is considered
necessary at this time as this sub-grant expired in 1997 and the AmeriCorps program is
no longer administered by this subgrantee.

5. General ledger detail did not agree to Financial Status Reports (Questioned Claimed
   Costs of $1,021)

For one subgrantee, Portland Area Council of Camp Fire, we identified differences
between amounts recorded in the accounting records maintained at the subgrantee and
amounts reported on the respective Financial Status Reports (FSRs) submitted to the
Commission. Specifically, the cost categories on the FSRs for program years 1997-1998
and 1998-1999 were understated by $43,628 for some cost categories and overstated by
$24,987 for other cost categories, resulting in an absolute net difference of ($18,641).
However, the difference for the administration cost category of ($39,575), if added to
amounts actually claimed on the related FSRs, would exceed the 5% administrative cap
permitted by AmeriCorps provisions. As a result, the amount reflected as questioned
costs on Exhibit A-1 for this cost category has been limited to ($19,913). The resultant
net questioned cost for this finding is therefore $1,02 1.

AmeriCorps General Provision No. 21 (b) states that subgrantees must maintain adequate
supporting documents for every expenditure (Federal and Non-Federal) and in-kind
contributions made under this Grant. Costs must be shown in books or records (e.g. a
disbursement ledger or journal), and must be supported by a source document, such as a
receipt, travel voucher, invoice, bill, in-kind voucher, or similar document.

       Recommendation

We recommend that the Commission request the subgrantee to prepare and submit
revised Financial Status Reports for program years 1997-1998 and 1998-1999 along with
supporting documentation. Such revised FSRs should be reviewed to ensure the 5%
administrative cap is not exceeded and that all requisite approvals for reprogramming
have been attained prior to submitting any revised claim for administrative costs that
might exceed the 10% reprogramming threshold.

Additionally, we recommend that the Commission establish policies and procedures to
ensure that all subgrantees, including the Portland Area Council of Camp Fire, maintain
financial management systems which include standard accounting codes and a clear audit
trail, and are capable of distinguishing expenditures attributable to grant and nongrant
funding, identifying costs by line item, and differentiating between direct and indirect
costs. Additionally, amounts reported to the Commission on FSRs should be reconciled
to the general ledger system prior to submission.

We have been informed that, subsequent to the issuance of the pre-audit survey report,
the Commission developed policies and procedures to review the financial management
systems of its subgrantees. However, these policies and procedures were not in place
during the period covered by our audit and were not subject to tests of effectiveness
during the course of the audit.

6. The basis of an in-kind contribution could not be determined (Questioned Match
   Amount of $72,000)

For one subgrantee, Friends of the Children, the basis used for allocation of the value of
an in-kind contribution (rent, totaling $72,000 over all program years) could not be
determined due to lack of supporting documentation. The subgrantee provided
documentation to support the square foot value of the rental space, however, there was
insufficient documentation to support the reasonableness of the square footage allocated
to the AmeriCorps program. AmeriCorps General Provision No. 21 (b) states that
subgrantees must maintain adequate supporting documentation for every expenditure
(Federal and Non-Federal) and in-kind contributions made under this grant. Costs must
be shown in books or records (e.g. a disbursement ledger or journal), and must be
supported by a source document, such as a receipt, travel voucher, invoice, bill, in-kind
voucher, or similar document.

       Recommendation

No recommendation is considered necessary at this time as this Commission sub-grant
expired in 1997 and the AmeriCorps program is no longer administered by this
subgrantee. However, the Corporation should follow up during the audit resolution
process to determine whether match amounts reported by this subgrantee are supportable,
and if not, the corresponding amount of Federal claimed costs should also be disallowed.

7. Match amounts were reported without the receipt of funds (Questioned Match of
   $4,500)

One subgrantee, the Enterprise Foundation, recorded match contributions for program
year 1999-2000 totaling $4,500 that, as of June 6,2001, had not been received.
ArneriCorps General Provision No. 21 (b) states that subgrantees must maintain adequate
supporting documentation for every expenditure (Federal and Non-Federal) and in-kind
contributions made under this Grant. Costs must be recorded in books or records (e.g. a
disbursement ledger or journal), and must be supported by a source document, such as a
receipt, travel voucher, invoice, bill, in-kind voucher, or similar document.
       Recommendation

We have no recommendations at this time, as this Commission sub-grant has since
expired, and the program is no longer administered by this subgrantee. However, the
Corporation should follow up during the audit resolution process to determine whether
this match amount is proper and if not, the corresponding amount of Federal claimed
costs should also be disallowed.

8. Match amounts did not agree to Financial Status Reports (Questioned Match of
   $573,212)

For one subgrantee, Legal Aid Services of Oregon, details of match contributions
provided did not agree to the amounts reported in the general ledger for all program
years. Additionally, supporting documentation maintained for match amounts did not
agree to amounts recorded, and in some instances, could not be located. For example, for
program year 1999-2000 accounting records reported $185,475, however, the match
reported on the Financial Status Report amounted to $292,568, a difference of $107,093.

AmeriCorps General Provision No. 21 (b) states that subgrantees must maintain adequate
supporting documentation for every expenditure (Federal and Non-Federal) and in-kind
contributions made under this Grant. Costs must be shown in books or records (e.g. a
disbursement ledger or journal), and must be supported by a source document, such as a
receipt, travel voucher, invoice, bill, in-kind voucher, or similar document.

Subsequent to the completion of audit fieldwork, this subgrantee submitted a revised
Financial Status Report to the Commission as well as additional documentation to
support the revised match amounts. We did not audit this information. However, the
significance of the revised information indicates that there were no appropriate controls
or procedures in place over accounting and reporting of match amounts on Financial
Status Reports submitted to the Commission and ultimately to the Corporation over the
duration of the program.

       Recommendation

We recommend that the Commission implement policies and procedures to require that
Legal Aid Services and other subgrantees maintain proper accounting records to support
match amounts reported, and ensure that adequate supporting documentation is
maintained. We also recommend that the Corporation follow up during the audit
resolution process to determine whether revised match amounts reported by this
subgrantee are supportable, and if not, the corresponding amount of Federal claimed costs
should also be disallowed.

We have been informed that, subsequent to the issuance of the pre-audit survey report,
the Commission developed policies and procedures to periodically monitor the validity
and reasonableness of subgrantee match information. However, these policies and
procedures were not in place during the period covered by our audit and were not subject
to tests of effectiveness during the course of the audit.

B. Other Compliance Findings

9. Lack of documentation

           Parental consent

Two of 22 Members sampled at Northwest Youth Corps required parental consent to be
eligible to serve, but sufficient documentation to support parental consent was not
maintained. ArneriCorps Special Provision No. 6 (g) requires that before enrolling in a
program, individuals under 18 years of age must provide written consent from a parent or
legal guardian.

           Criminal record check

The following subgrantees enrolled Members who required a criminal record check;
however, sufficient documentation to support that a criminal record check was conducted
was not maintained. ArneriCorps Special Provision No. 6 (h) requires that programs with
Members or employees who have substantial contact with children (as defined by state
law) or who perform service in the homes of children or individuals considered
vulnerable by the program shall, to the extent permitted by state and local law, conduct
criminal record checks. The Provisions require that this documentation be maintained
within Member or employee files.

Lacking Documentation
For:                                                                             Lacking
                                                                           Documentation1

Criminal Background                                                               56 of 73
                              Central Oregon Community College
Check
                              Oregon Department of Human                          10 of 26
                              Resources
                              Enterprise Foundation                    I           6 of 19

                              Forest Grove School District                         2 of 17

                              Friends of the Children                              1 of18

                              Multnomah County District Attorney                   1 of16
          Position descriptions

Documentation to support position descriptions was not maintained by the following
subgrantees. AmeriCorps Special Provision No. 7 (a) requires that the subgrantee
develop Member position descriptions that provide for direct and meaningful service
activities and performance criteria that are appropriate to the skill level of Members.
Member activities may not include clerical work, research, or fund raising activities
unless such activities are incidental to the Member's direct service activities. The
Subgrantee must ensure that each Member has sufficient opportunity to complete the
required number of hours to qualifl for a post-service Education award. In planning for
the Member's term of service, the Subgrantee must account for holidays and other time
off, and must provide each Member with sufficient opportunity to make up missed hours.

Lacking                   Subgrantee                                       Member Files
Documentation For:                                                              Lacking
                                                                         Documentation1
                                                                             Sample Size
Position Descriptions
                          Friends of the Children                                17 of 18

                           Central Oregon Community College                      12 of 73

                           Enterprise Foundation

                           Oregon Department of Human Resources                   4 of 26

                           Portland Area Council of Camp Fire        I            3 of 17

                           Northwest Youth Corps                                  2 of 22

                           Multnomah County District Attorney        I
           Member contracts

Documentation to support that Members had signed contracts which included
AmeriCorps requirements was not maintained by the following subgrantees. AmeriCorps
Special Provision 7 (b) requires that the subgrantee must ensure that all Members sign
contracts that, at a minimum, stipulated the following:

           - The minimum number of service hours and other requirements (as
               developed by the program) necessary to successfully complete the term of
               service and to be eligible for the Education award;
           -   Acceptable conduct;
           - Prohibited activities;
           - Requirements under the Drug-Free Workplace Act (41 U.S.C. 701 et seq.);
           - Suspension and termination rules;
           - The specific circumstances under which a Member may be released for
             cause;
           - The position description;
           - Grievance procedures; and
           - Other requirements as established by the program.


Lacking Documentation            Subgrantee                                   Member Files
For:                                                                              Lacking
                                                                           Documentation1
                                                                               Sample Size
Signed Member Contracts
                             I   Friends of the Children                              13 of 18

                             /   Enterprise Foundation

                             I   Multnomah County District Attorney

                             I Central Oregon Community College
                             I Oregon Department of Human
                             I Resources
                             I Forest Grove School District
Member Contracts Which
Define All Member                Central Oregon Community College
Requirements

Additionally, documentation to support that program specific requirements set forth in
the Member contract had been met was not maintained in 7 of 18 Member files sampled
at Friends of the Children. Program specific requirements included a driver's license and
CPR certification. AmeriCorps Special Provision 7 (b-ix) allows for the Member
contract to stipulate other requirements as established by the program.

           Orientation

Documentation to support that an orientation was conducted for enrolled Members was
not maintained by the following subgrantees. AmeriCorps Special Provision 7 (c)
requires that, consistent with the approved budget, the Subgrantee must provide Members
with the training, skills, knowledge and supervision necessary to perform the tasks
required in their assigned project positions, including specific training in a particular field
and background information on the community served. The Subgrantee must conduct an
orientation for Members and comply with any pre-service orientation or training required
by the Corporation. This orientation should be designed to enhance Member security and
sensitivity to the community. Orientation should cover Member rights and
responsibilities, including the program's code of conduct, prohibited activities,
requirements under the Drug-Free Workplace Act (41 U.S.C. 701 et seq.), suspension and
termination from service, grievance procedures, sexual harassment, other non-
discrimination issues, and other topics as necessary,

Lacking                    Subgrantee                                  Member Files
Documentation For:                                                         Lacking
                                                                     Documentation/
                                                                        Sample Size
Orientation
                           Oregon Department of Human Resources               26 of 26

                           Central Oregon Community College

                           Friends of the Children

                           Forest Grove School District

                           Multnomah County District Attorney

                           Legal Aid Services of Oregon

                           Enterprise Foundation

              Member 's service time

Documentation to support that Member's service time was directed toward the grant's
intent was not maintained for the following subgrantees. AmeriCorps Special Provision
No. 7 (e) requires that not more than 20% of the aggregate of all AmeriCorps Member
service hours in a program may be spent in education, training or other non-direct
activities.

Lacking Documentation          Subgrantee                              Member Files
For:                                                                        Lacking
                                                                     Documentation/
                                                                        S a m ~ l eSize
Member's Service Time
                               Enterprise Foundation                            9 o f 19
was Directed Towards the
Grant's Intent
                               Central Oregon Community College                 2 of 73
                               Oregon Department of Human
                               Resources
           Member start and end dates/Location of Member's sewice

Member start and end dates, as well as identification of a Member's location of service
were not maintained by Northwest Youth Corps (1 0 of 22 sampled) and Legal Aid
Services of Oregon (one of 2 1 sampled). AmeriCorps Special Provision No. 14 (a)
requires that the subgrantee must maintain verifiable records which document each
Member's participation start date and end date, hours of service per week, location of
service activities and project assignment.

           Mid-term and end-of-term evaluations

The following subgrantees could not locate mid-term and end-of-term evaluations for
certain Members that were selected for review. AmeriCorps Provision 7 (g) requires that
each subgrantee must conduct at least a mid-term and end-of-term written evaluation of
each Member's performance, focusing on such factors as:

    - Whether the Member has completed the required number of hours;
    - Whether the Member has satisfactorily completed assignments; and
    - Whether the Member has met other performance criteria that were clearly
      communicated at the beginning of the term of service.

Lacking                    Subgrantee                                     Member Files
Documentation For:                                                             Lacking
                                                                        Documentation/
                                                                            Sample Size
Mid-Term      End-of-
                           Multnomah County District Attorney                     11 of16
Term Evaluations
                           Oregon Department of Human Resources                    6 of 26

                            Legal Aid Services of Oregon                           5 of 21

                            Enterprise Foundation                                  2 of 19

                            Northwest Youth Corps                                  1 of 22

                            Legal Aid Services of Oregon                           9 of 21

                            Northwest Youth Corps                                  6 of 22

                            Enterprise Foundation                                  6 o f 19
    Lacking                   Subgrantee                                    Member Files
    Documentation For:                                                         Lacking

                                                                              Sample Size
    Mid-Term End-of-
    Term Evaluations          Portland Area Council of Camp Fire                    5 of 17

                              Oregon Department of Human Resources                  3 of 26

                              Multnomah County District Attorney                    2 of 16

                              Friends of the Children                               1 of 18

              Enrollment forms, change of status forms, exit/end-of-term-ofsewiceforms

    Certain standard forms required to be completed for Members, as well as the timeframe
    for submission to be adhered to, were not complied with by the following subgrantees.
    ArneriCorps Special Provision No. 16 (b) requires that the following documents are
    required from the grantee:

       -   Enrollment Forms. State Commissions and parent organizations must submit
           Member Enrollment Forms to the Corporation no later than 30 days after a
           Member is enrolled.
       -   Change of Status Forms. State Commissions and parent organizations must
           submit Member Change of Status Forms to the Corporation no later than 30 days
           after a Member's status is changed. By forwarding Member Change of Status
           Forms to the Corporation, State Commissions and parent organizations signal
           their approval of the change.
       -   ExitIEnd-of-Term-of-ServiceForms. Programs must submit Member ExitIEnd-
           of-Term-of-Service Forms to the Corporation no later than 30 days after a
           Member exits the program or finishes hisher term of service early.


    Lacking Documentation           Subgrantee                              Member Files
    For:                                                                          Lacking
                                                                          Documentation1
                                                                              Sarnr.de Size
                                /   Friends of the Children

I   Authorized Enrollment
    Form
                                I   Friends of the Children
Lacking Documentation             Subgrantee                                  Member Files
For:                                                                               Lacking
                                                                            Documentation1
                                                                                Sample Size
Timely Submission of
                                  Legal Aid Services of Oregon                      14 of 21
Enrollment Form
                                  Friends of the Children                            1 of 18
                                                            --


ExitIEnd-of-Term Form
                                  Legal Aid Services of Oregon                       2 of 21

                                  Friends of the Children                            1 of18

                                  Northwest Youth Corps                              1 of 22
Authorized ExitIEnd-of-
Term Form
Timely submission of
                                  Friends of the Children              I             1 of 18

                                  Legal Aid Services of Oregon
ExitIEnd-of-Term form
                                  Portland Area Council of Camp Fire    I            1 of 17
Timely submission of
~ x i t l ~ n d - o f - ~ eform
Timely submission of
                            rm
                                  Friends of the Children
                                                                        I            1 of18

Change in Status Form

         Recommendation

The Commission should require subgrantees to provide documented procedures to
enhance and formalize the file maintenance process currently in place. Procedures
should include, where applicable, a checklist for all required documentation, a training
program for personnel who handle Member files, and a periodic review process where
selected Member files are checked for compliance with documented procedures. In
addition, the Commission should routinely test Member file maintenance as part of its
site monitoring procedures.

We have been informed that, subsequent to the issuance of the pre-audit survey report,
the Commission has developed policies and procedures to periodically review Member
files for required documentation. However, these policies and procedures were not in
place during the period covered by our audit and have not been subject to tests of
effectiveness.
Administration and Program Development and Training (PDAT) Grants

C. Compliance Findings Resulting in Questioned Costs

10. Lack of adequate documentation for grant expenses

The Commission could not provide adequate support for grant expenses amounting to
$27,867. Of this amount $27,388 (consisting of two payments of $13,694 each) relates to
a recurring type of administrative grant expense purported to represent the annual charge
for services by its fiscal agent for the drawing of Federal funds. Because the
documentation provided by the fiscal agent did not adequately demonstrate how the
amounts charged to the Commission were derived, we could not ascertain if the charges
were reasonable. This recurring cost issue was identified during the pre-audit survey
(Findings and Recommendations from the Pre-Audit Survey Report is attached as Exhibit
D)

       Recommendation

As recommended in the pre-audit survey report, the Commission should meet with the
Oregon Department of Education to obtain an understanding of and support for the
amounts charged to the Commission for services provided in drawing down Federal
funds for program expenses. Based on the information obtained, ascertain whether any
adjustments should be made to reported allowable grant expenses and take appropriate
corrective action. Additionally, it is recommended that the Commission establish a
process for a second person review of the propriety of expenses as classified in the
general ledger. Any discrepancies noted should be corrected on a timely basis to ensure
the accuracy of grant expense information reported to the Corporation.

D. Other Compliance Findings

11. Failure to submit FSRs for administrative and PDAT grants

As of the date of our report, the Commission has not submitted FSRs for the
Administrative and Program Development and Training (PDAT) grants for 1999 and
2000 (grant award period January through December). These funds were awarded to the
Commission on September 29,2000, and as a result, funds relating to this period have
been excluded from the schedule of award costs presented in Exhibits B and C. This
issue was identified during the pre-audit survey (Findings and Recommendations from
the Pre-Audit Survey Report are included in this report as Exhibit D) for program years
prior to December 1998 for which FSRs have now been submitted. Grant requirements
prescribe submission of FSRs no later than 90 days following the last quarter. Delays in
submission of the required reports may result in the suspension of funds and ultimately
cancellation of the grant itself.
       Recommendation

We strongly recommend that the required FSRs be submitted without further delay.

RESPONSIBILITIES

Management's Responsibility

The Oregon Community Service Commission is responsible for:

       preparing Financial Status Reports in accordance with the terms and conditions of
       its grant awards from the Corporation for National and Community Service.
       These reports provide the information which is used to prepare the Schedules of
       Award Costs;

       establishing and maintaining internal controls over financial reporting; and

       complying with laws and regulations, including those related to monitoring of its
       subgrantees.

In fulfilling this responsibility, estimates and judgments by management are required to
assess the expected benefits and related costs of internal control policies.

Auditors' Responsibility

Our responsibility is to issue our report on the Schedules of Award Costs.

Although our report included a disclaimer of opinion on the Schedules of Award Costs,
we conducted our incurred costs audit in accordance with auditing standards generally
accepted in the United States of America, Government Auditing Standards issued by the
Comptroller General of the United States, and the Audit Program for Full Scope Incurred
Cost Audit of Corporation Awards with Subrecipients (the Audit Program), issued by the
Corporation's Office of Inspector General. Those standards require that we plan and
perform the audit to obtain reasonable assurance about whether the amounts claimed
against the award, as presented in the Consolidated Schedules of Award Costs (Exhibits
A through C), are free of material misstatement.

An audit includes:

       examining, on a test basis, evidence supporting the amounts and disclosures in the
       Schedules;
       assessing the accounting principles used and significant estimates made by
       management; and
       evaluating the overall Schedules of Award Costs presentation.
In planning and performing our incurred cost audit, we considered the Commission's
internal control over financial reporting by obtaining an understanding of the
Commission's internal controls, determining whether these internal controls have been
placed in operation, assessing control risk, and performing tests of controls in order to
determine our auditing procedures for the purpose of expressing our opinion on the
Schedules. We limited our internal control testing to those controls necessary to achieve
the objectives described in Government Auditing Standards.

As part of obtaining reasonable assurance about whether the Schedules of Award Costs
are free of material misstatement, we performed tests of the Commission's compliance
with certain provisions of applicable laws, regulations and provisions of the
Corporation's grant agreements, noncompliance with which could have a direct and
material effect on the determination of Schedule amounts. We limited our tests of
compliance to these provisions and we did not test compliance with all laws and
regulations applicable to the Commission.

We provided a draft of this report to the Commission and Corporation. The
Commission's and Corporation's responses to our report are included as Appendix A
and B. Our comments on these responses are included as Appendix C and D.

DISTRIBUTION

This report is intended solely for the information and use of the Office of the Inspector
General and management of the Corporation for National and Community Service, the
management of the Oregon Community Service Commission, and the United States
Congress and is not intended to be and should not be used by anyone other than these
specified parties.




June 26.2001
                                                                          Exhibit A


                    Oregon Community Service Commission
                                AmeriCorps
                           Schedule of Award Costs
                      January 1,1994 to August 31,2000

                                   Approved                         Questioned
Cost Category                       Budget        Claimed Costs       Costs
Full Scope Audit Procedures

Member Support Costs:
   Living Allowance
   FICA & Workers Comp
   Health Care
Subtotal
Other Member Costs:
   Training & Education
   Other
Subtotal
Staff:
  Salaries
  Benefits
  Training
  Other
Subtotal
Operating Costs
Internal Evaluation
Administration

CORPORATION FUNDS

MATCHING FUNDS

TOTAL FUNDS - Full Scope

Limited Scope Audit Procedures

CORPORATION FUNDS

MATCHING FUNDS

TOTAL FUNDS - Limited Scope

TOTAL FUNDS

               See accompanying notes to Schedules of Award Costs
                                                                      Exhibit A-1


                   Oregon Community Service Commission
                     Portland Area Council of Camp Fire
                           Schedule of Award Costs
                  From September 1,1997 to August 31,2000


                               Approved         Claimed          Questioned
Cost Category                   Budget           Costs             Costs

Member Support Costs:
   Living Allowance
   FICA & Workers Comp
   Health Care
Subtotal
Other Member Costs:
   Training & Education
   Other
Subtotal
Staff:
  Salaries
  Benefits
  Training
  Other
Subtotal
Operating Costs
Internal Evaluation
Administration

CORPORATION FUNDS

MATCHING FUNDS

TOTAL FUNDS




            See accompanying notes to Schedules of Award Costs
                                                                      Exhibit A-2


                   Oregon Community Service Commission
                           Friends of the Children
                          Schedule of Award Costs
                  From September 1,1994 to August 31,1997


                               Approved          Claimed         Questioned
Cost Cate~orv                   Budget            Costs            Costs

Member Support Costs:
   Living Allowance
   FICA & Workers Comp
   Health Care
Subtotal
Other Member Costs:
   Training & Education
   Other
Subtotal
Staff:
  Salaries
  Benefits
  Training
  Other
Subtotal
Operating Costs:
Internal Evaluation:
Administration:

CORPORATION FUNDS

MATCHING FUNDS

TOTAL FUNDS




            See accompanying notes to Schedules of Award Costs
                                                                         Exhibit A-3


                      Oregon Community Service Commission
                             Northwest Youth Corps
                             Schedule of Award Costs
                     From September 1,1998 to August 31,2000


                                   Approved          Claimed         Questioned
Cost Category                       Budget            Costs            Costs

Member Support Costs:
   Living Allowance
   FICA & Workers Comp
   Health Care
Subtotal
Other Member Costs:
   Training & Education
   Other
Subtotal
Staff:
  Salaries
  Benefits
  Training
  Other
Subtotal
Operating Costs
Internal Evaluation
Administration

CORPORATION FUNDS

MATCHING FUNDS

TOTAL FUNDS




                See accompanying notes to Schedules of Award Costs
                                                                          Exhibit A-4


                     Oregon Community Service Commission
                          Legal Aid Services of Oregon
                            Schedule of Award Costs
                   From November 1,1997 to September 30,2000


                                   Approved          Claimed          Questioned
Cost Category                       Budget            Costs             Costs

Member Support Costs:
   Living Allowance
   FICA & Workers Comp
   Health Care
Subtotal
Other Member Costs:
   Training & Education
   Other
Subtotal
Staff:
  Salaries
  Benefits
  Training
  Other
Subtotal
Operating Costs
Internal Evaluation
Administration

CORPORATION FUNDS

MATCHING FUNDS

TOTAL FUNDS




                See accompanying notes to Schedules o f Award Costs
                                                                     Exhibit A-5


                  Oregon Community Service Commission
                          Enterprise Foundation
                         Schedule of Award Costs
                 From October 1,1998 to September 30,2000


                               Approved          Claimed         Questioned
Cost Cate~orv                   Budget            Costs            Costs

Member Support Costs:
   Living Allowance
   FICA & Workers Comp
   Health Care
Subtotal
Other Member Costs:
   Training & Education
   Other
Subtotal
Staff:
  Salaries
  Benefits
  Training
  Other
Subtotal
Operating Costs
Internal Evaluation
Administration

CORPORATION FUNDS

MATCHING FUNDS

TOTAL FUNDS




            See accompanying notes to Schedules of Award Costs
                                                                          Exhibit A-6


                      Oregon Community Service Commission
                Oregon Coalition Against Domestic and Sexual Violence
                              Schedule of Award Costs
                     From September 1,1994 to August 31,1997


                                    Approved          Claimed           Questioned
Cost Category                        Budget            Costs              Costs

Member Support Costs:
   Living Allowance
   FICA & Workers Comp
   Health Care
Subtotal
Other Member Costs:
   Training & Education
   Other
Subtotal
Staff:
  Salaries
  Benefits
  Training
  Other
Subtotal
Operating Costs
Internal Evaluation
Administration

CORPORATION FUNDS                       734,190          691,114           691,114

MATCHING FUNDS                          199,841          190,O 15           190,015

TOTAL FUNDS                     $       934,031   $      881,129    $      881,129




                See accompanying notes to Schedules of Award Costs
                                                                          Exhibit B


                  Oregon Community Service Commission
                              Administration
                         Schedule of Award Costs
                   January 20,1994 to December 31,1998


                            Approved            Claimed            Questioned
Cost Category                Budget              Costs               Costs

Staff Salaries

Consultants

TrainingIWorkshops

SubgrantsIContracts

Operating Costs

Other Costs
   Travel
   Other

Total Funds




              See accompanying notes to Schedules of Award Costs
                                                                    Exhibit C


                   Oregon Community Service Commission
                 Program Development and Training (PDAT)
                         Schedule of Award Costs
                    January 1,1995 to December 31,1998


                            Approved           Claimed             Questioned
Cost Category                Budget             Costs                Costs

Staff Salaries          $        50,512   $        97,882      $          -
Consultants                      43,000            26,277                 -




Operating Costs                  29,500               75 1                -

Other Costs
   Travel                        29,500            10,134
   Other                         19,000            20,468                 -

Total Funds




          See accompanying notes to Schedules of Award Costs
                       Oregon Community Service Commission
                         Notes to Schedules of Award Costs


1. Summary of Significant Accounting Policies

Reporting Entity

The accompanying Schedules of Award Costs include amounts budgeted, claimed, and
questioned under AmeriCorps, Administrative, and Program Development and Training
(PDAT) grants awarded to the Oregon Community Service Commission (the
Commission) by the Corporation for National and Community Service (Corporation) for
the period January 1, 1994 to August 3 1,2000. The Schedules of Award Costs for two of
the Commission's subgrantees include information through September 30,2000, which
coincides with the end of their program years.

The accompanying Schedule of Award Costs (Exhibit A) does not include approximately
$649,911 of costs incurred under award programs other than AmeriCorps received from
the Corporation. Such award costs represent less than 5% of total costs incurred under all
grants received from the Corporation and were considered immaterial in achieving the
90% audit coverage required under the Incurred Cost audit guide.

The Commission awards its AmeriCorps grant funds to numerous subgrantees who
administer the AmeriCorps program and report financial and programmatic results to the
Commission. The Schedule of Award Costs for the Administration and PDAT grants
include funds awarded through December 3 1, 1998, since funds for 1999 and 2000 were
not awarded to the Commission until September 29,2000.

Basis of Accounting

The accompanying Schedules have been prepared to comply with the provisions of the
grant agreements between the Corporation and the Commission. The information
presented in the Schedules has been prepared from the reports submitted by the
Commission to the Corporation. The basis of accounting used in preparation of these
reports differs slightly from accounting principles generally accepted in the United States
of America as follows:

Equipment

Equipment is charged to expense in the period during which it is purchased instead of
being recognized as an asset and depreciated over its useful life. As a result, the expenses
reflected in the Schedules of Award Costs include the cost of equipment purchased
during the period rather than a provision for depreciation. The equipment acquired is
owned by OCSC while used in the program for which it was purchased or in other future
authorized programs. However, the Corporation has reversionary interest in the
equipment. Its disposition, as well as the ownership of any proceeds therefore, is subject
to Federal regulations.

Inventory

Minor materials and supplies are charged to expense during the period of purchase.

Classification of Award Costs

The accompanying Schedule of Award Costs (Exhibit A) presents award costs for the
AmeriCorps program classified as follows:

Full Scope - Represents costs incurred by the Commission for Administration and PDAT
as well as by selected Commission subgrantees for which full scope audits of costs
incurred were performed. Subgrantees subject to full scope audits were:

Portland Area Council of Camp Fire
Friends of the Children
Northwest Youth Corps
Legal Aid Services of Oregon
The Enterprise Foundation
Oregon Coalition Against Domestic and Sexual Violence

Limited Scope - Represents aggregate costs incurred by selected Commission
subgrantees for which audit tests were limited to those costs related to Member
compliance. All other costs were covered by separate audits performed to meet the
requirements of OMB Circular A-1 33, Audits of States, Local Governments, and Not-for-
Profit Organizations. Subgrantees subject to limited scope audit work were:

Forest Grove School District
Multnomah County District Attorney
Central Oregon Community College
Oregon Department of Human Resources

Questioned Costs

Questioned costs represent aggregate amounts identified during the audit which are
subject to ultimate determination of allowability by the Corporation for National and
Community Service through the audit resolution process. Certain amounts included in
questioned Member support costs are based on estimates. Questioned costs included on
the accompanying Schedules do not include potentially disallowed Education Awards
related to ineligible Members. Such additional questioned costs amount to
approximately $6 15,500.

A detailed reconciliation of amounts identified as questioned costs in the report to those
reflected in Exhibits A-1 through A-6 is presented on the following pages.
                                                                             Full Scope Auditees
                                                                         Summary of Questioned Costs


                                              Report     Portland Area                                  Legal Aid                   Oregon Coalition
                                               Page       Council of     Friends of the    Northwest    Services of   Enterprise    Against Domestic     Consolidated Full
                  Finding                    Reference    Camp Fire        Children       Youth Corps    Oregon       Foundation   and Sexual Violence     Scope Audit
Questioned Claimed Costs
Lack of Adequate Financial Records
Documentation to support Member's term
of service
Lack of Documentation
    Eligibility Requirements
    Time and attendance records and
    proper authorization of timesheets
    Member living allowance or staff
    salary wage rate
Documentation to support selected
payments under the grant
General ledger detail did not agree to
FSRs
    Subtotal

Questioned Match
Lack of Adequate Financial Records
Documentation to support Member's term
of service
Lack of Documentation
    Eligibility Requirements
    Time and attendance records and
    proper authorization of timesheets
    Member living allowance or staff
    salary wage rate
Basis of an in-kind contribution could not
be determined
Match amounts reported without receipt
of funds
Match amounts did not agree to FSRs
    Subtotal
                                    Total
                                                                Limited Scope Auditees
                                                              Summary of Questioned Costs


                                           Report Page    Forest Grove     Multnomah County       Central Oregon    Oregon Department of    Consolidated
                  Finding                   Reference    School District    District Attorney   Community College     Human Resources      Limited Scope
Questioned Claimed Costs
Documentation to support Member's
term of service
Lack of Documentation
   Eligibility Requirements
   Time and attendance records and
   proper authorization of timesheets
   Subtotal

Questioned Match
Documentation to support Member's
term of service
Lack of Documentation
   Eligibility Requirements
   Time and attendance records and
   proper authorization of timesheets
   Subtotal
                                   Total
                                                                                Exhibit D

Findings and Recommendations from the Pre-Audit Survey
of the Oregon Community Service Commission
(Extracted from OIG Audit Report No. 01-03)

Findings and Recommendations

The Commission is in the process of documenting its policies and procedures relating to
the selection of subgrantees, administration of grant funds, evaluation and monitoring of
subgrantees, and providing training and technical assistance to subgrantees. As this
project is being completed, we recommend that the Commission consider the
recommendations discussed below that we developed based on specific findings within
each area.

Selecting Subgrantees

According to A Reference Manual for Commission Executive Directors and Members,
section 3.2, "Commissions are expected to develop a fair and impartial process for
reviewing and selecting applicants for potential hnding." The Commission has
developed and implemented various procedures to meet this responsibility. However,
these procedures were not consistently applied to all program years. Because of funding
constraints in program years 1996-97 and 1999-2000, the Commission elected to offer
funding only to existing programs to ensure programs in good standing were not
eliminated or penalized for the lack of new or additional funds.

Even though the selection process may only encompass renewal applications from
existing subgrantees, the Commission does require the peer reviewers who evaluate these
applications to sign conflict of interest statements before the commencement of the
selection process. In addition, beginning with the 2000-01 selection process, peer
reviewers use a standard form, which includes an area for the assessment of financial
systems and organizational capacity, to evaluate each applicant.

We identified the following areas for improvement within the selection process.

       Assessment ofApplicants ' Financial Systems during the Selection Process

Prior to the 2000-01 selection process, peer reviewers did not consider the adequacy of
the applicants' financial systems during the Commission's subgrantee selection process.
The application form provided by the Corporation and used prior to the PY 2000-01
selection process did not specifically address the applicant's financial system.
Commission selection procedures also did not require applicant's to provide information
related to their financial systems. As a result, grant funds may have been provided to
organizations that did not have the financial systems in place to properly account for
those funds or to ensure compliance with grant requirements.
                                                                                 Exhibit D

Findings and Recommendations from the Pre-Audit Survey
of the Oregon Community Sewice Commission
(Extracted from OIG Audit Report No. 01-03)


       Missing Documentation Related to Rejection of Funding Decisions

We selected a sample of four applicants, one each from program years 1994-95 through
1998-99 for which funding had been denied by the Commission. For three of these
items, the Commission was unable to provide all requested documentation related to the
denial of funding decision. Documentation to support communication of one funding
rejection and detailing the Commission's rationale for rejection in the case of two of the
others was not available. As a result, if one of these rejected applicants questions the
reason for rejection, the Commission has no records to reference which support its
decisions.

       Composition of the Board of Commissioners

The composition of the Board of Commissioners does not appear to be representative of
the population of the State of Oregon. Currently, nine of 11 Board members reside in the
Salem and Portland areas. The remaining two Board members are from southern Oregon.
Although the Board members do not serve as panelists for selection of subgrantees, they
have significant influence in the selection of the panelists. The needs of the more rural
areas of the State may not be adequately addressed since representatives from these areas
are not included in the decision-making processes.

       Recommendations

We recommend the Commission focus on measures for improving the effectiveness of its
subgrantee selection process as follows:

    Develop and implement procedures to ensure that adequate documentation is
    maintained to support funding decisions and communication of those decisions to
    applicants.

    Review the current composition of the Board of Commissioners and restructure it, if
    necessary, to ensure that all areas of the State are adequately represented.

Administering Grant Funds

Guidelines to be followed in the grant administration process for Corporation grantees is
set forth in A Reference Manual for Commission Executive Directors and Members.
Guidance is provided in the manual for performance of general administrative activities
at the Commission level, and for evaluation of subgrantee administrative activities.
Section 4.3 of the manual states, "Commissions must evaluate whether subgrantees
comply with legal, reporting, financial management and grant requirements and ensure
follow through on issues of non-compliance."
                                                                                  Exhibit D

Findings and Recommendations from the Pre-Audit Survey
of the Oregon Community Service Commission
(Extracted from OIG Audit Report No. 01-03)


We identified the following areas for improvement related to the administration of grant
funds at the commission level and to the evaluation of subgrantee compliance with
reporting and other administrative grant requirements.

       Adequacy of StafJing Levels Beginning July 1, 2000

As of July 1,2000, the Commission lost two staff members, the Administrative Officer
and Special Projects Coordinator. The Commission currently does not plan to
immediately fill these positions. Instead, other staff members will temporarily absorb the
duties and responsibilities of these positions.

The duties of the Administrative Officer are integral to the Commission's success in
achieving its mission, and include such tasks as reconciling the financial activities of the
Commission's two fiscal entities (i.e., DCCWD and PSU) and performing fiscal
monitoring of subgrantees. The Special Projects Coordinator's duties are equally
important; this position is responsible for managing the Disability, Promise Fellows and
other grant programs and organizing training activities. Failure to maintain adequate
staffing levels may lead to the overburdening of the remaining employees, inadequate
and/or untimely completion of assigned duties, performance of incompatible duties for
internal control purposes, and ultimately to additional turnover which might place the
ongoing activities of the Commission at risk.

       Failure to Submit FSRs for Administrative, PDAT and Disability Grants

Prior to December 1997, the Commission did not submit FSRs for Administrative,
Program Development and Training and Disability grants. Since that time, the
Commission has prepared and submitted restated FSRs to the Corporation for the periods
previously omitted.

       Lack of Evidence of FSR Review, Including Matching Recalculation

Commission procedures require that subgrantee FSRs be reviewed upon receipt and that
matching requirements be recalculated at that time. However, prior to March 1998, there
is no evidence that Commission personnel performed this function. Performance of this
review is an essential control in the detection and correction of errors on FSRs.
Documentation of the review process fixes responsibility for its performance and reduces
the risk that errors on FSRs may exist and remain undetected. Beginning in March 1998,
the Commission began using a formal review form to document the FSR review process.
                                                                             Exhibit D

Findings and Recommendations from the Pre-Audit Survey
of the Oregon Community Service Commission
(Extracted from OIG Audit Report No. 01-03)


       Disbursement of Funds to Subgrantees

Prior to March 1998, the Commission awarded funds to subgrantees on a pro rata basis,
either quarterly or on another basis determined by the subgrantee, instead of on a
reimbursement or proximate need basis. As a result, subgrantees likely maintained cash
on hand that exceeded their immediate cash flow requirements for AmeriCorps program
expenditures.

       Proper Authorization for the Disbursement of Funds

The Commission does not have procedures in place to ensure that disbursements of funds
have been properly authorized by responsible personnel. The fiscal agent, acting on
orders received from the Commission, draws down federal funds and disburses them to
the appropriate subgrantees. However, clear guidance on who has the proper authority to
direct the draw downs is not communicated to the fiscal agent, thus increasing the risk
that funds may be drawn down for other than authorized purposes.

       Timely Drawdown of Federal Funds

The Commission does not have adequate procedures in place to ensure the timely
drawdown of federal funds. As of the date of this report, the Commission's fiscal agent
has not drawn down federal funds to reimburse the Commission for administrative
expenses since August 1999. The consequences of not having drawn down funds timely
are: (1) the State of Oregon, in effect, is funding all Commission activities; (2) the
Commission's current inability to apply for additional Corporation grant awards because
funds remain in the current draw account, even expenses have been incurred in excess of
the current balance of the draw account,: and (3) the Corporation's record of grant
advances to the Commission may be misstated for financial reporting purposes.

       Lack of a Comprehensive Agreement with Fiscal Agent

In the Commission's agreement with its first fiscal agent, DCCWD, the Commission did
not establish formal policies and procedures to ensure a mutually productive and
satisfactory working relationship. For example, formal procedures were not implemented
to:

       ensure that draw downs were properly authorized by appropriate Commission
       personnel;
       ensure the retention of the Commission's documentation maintained by the fiscal
       agent, permit access by Commission personnel to these records, or require the
       availability fiscal agent personnel for audits or reviews;
                                                                               Exhibit D

Findings and Recommendations from the Pre-Audit Survey
of the Oregon Community Sewice Commission
(Extracted from OIG Audit Report No. 01-03)

       resolve disputes between the Commission and its fiscal agent (i.e., grievance
       procedures); and
       provide for open channels of communication between the Commission and its
       fiscal agent to ensure an effective exchange of information to address grant
       administration issues.

The lack of a comprehensive agreement has led to inconsistencies in grants
administration. As of June 30,2000, the Oregon Housing and Community Service
Department (OHCS) became the fiscal agent of the Oregon Community Service
Commission. The new agreement contains more descriptive language regarding roles
and responsibilities of both the DCCWD and the OHCS.

       Written Policies and Procedures

The Commission's fiscal policy manual developed in September 1999 relates to
Commission staff members and programs receiving AmeriCorps competitive and formula
funding. However, formal policies have not yet been developed for other grant programs
such as Learn and Serve, Planning Development and Training, Disability and
Administrative grants.

       ClasslJication and Support for Administrative Grunt Expenses

The Commission could not provide adequate support for one recurring type of
administrative grant expense selected for review (charges allocated to the Commission by
its fiscal agent for amounts related to the fiscal agent's agreement with the Oregon
Department of Education for the drawing of federal funds). The item selected for review
amounted to $1 3,964 and was purported to represent the annual charge for services
provided. Because the documentation provided by the Oregon Department of Education
did not adequately demonstrate how the amounts charged to the Commission were
derived, we could not ascertain if the charges were reasonable. Inadequate supporting
documentation may result in Corporation funds being used for unallowable expenses.

Additionally, the Commission did not properly classify 2 of 16 administrative grant
award expenses selected for review in its general ledger. Misclassifications may lead
management to make erroneous conclusions based on the information provided,
potentially resulting in noncompliance with grant provisions and inaccurate reporting of
program activity to the Corporation.

       Timeliness of Receipt of FSRs

The Commission had not routinely date-stamped FSRs from subgrantees as they are
received. Therefore, the Commission cannot verify if these documents were submitted
timely in compliance with the grant agreement. As a result, subgrantee FSRs may have
                                                                               Exhibit D

Findings and Recommendations from the Pre-Audit Survey
of the Oregon Community Service Commission
(Extracted from OIG Audit Report No. 01-03)

been submitted late. We noted that the Commission began utilizing the Web Based
Reporting System which electronically records the date subgrantees submit their FSRs to
the Commission during the fiscal year ending September 30,2000. As a result, no
recommendation is required related to date stamping of FSRs currently being received.

       Recommendations

We recommend the Commission focus on measures for improving the effectiveness of its
grant administration process as follows:

   Determine and maintain realistic staffing levels based on funding, related duties and
   responsibilities. As an alternative to hiring additional personnel, the Commission
   could amend the current agreements with either of its paying agents to expand their
   scope of services to include performing the duties previously performed by the
   Administrative Officer. These duties include periodically reconciling Commission's
   expenses processed by both of its paying agents, performing subgrantee fiscal
   monitoring and ensuring compliance with relevant Corporation, grant and federal
   guidance for PDAT, Administrative and Disability grants.

   With respect to the duties previously performed by the Special Projects Coordinator,
   we recommend that the Commission consider staffing this position at an appropriate
   FTE level or contracting for the related services. In the absence of hiring additional
   staff, we recommend that the Commission segregate incompatible accounting
   functions as much as possible.

   Continue the development and implementation of procedures to review subgrantee
   FSRs, recalculate matching requirements and formally document the review
   procedures performed.

    Continue developing formal policies and procedures to encompass all grants awarded
    by the Commission, including Administrative, Program Development and Training
    and Disability.

    Evaluate the effectiveness of the new interagency agreement with OHCS after six
    months to determine whether any amendments are necessary to ensure a smooth
    working relationship between the Commission and its fiscal agent.

    Meet with the Oregon Department of Education to obtain an understanding of and
    support for the amounts charged to the Commission for services provided in drawing
    down federal funds for program expenses. Based on the information obtained,
    ascertain whether any adjustments should be made to reported allowable grant
    expenses and take appropriate corrective action.
                                                                                 Exhibit D

Findings and Recommendations from the Pre-Audit Suwey
of the Oregon Community Sewice Commission
(Extracted from OIG Audit Report No. 01-03)

   Establish a process for review by a second person of the propriety of expenses as
   classified in the general ledger. Any discrepancies noted should be corrected on a
   timely basis to ensure the accuracy of grant expense information reported to the
   Corporation.

   Establish a process to conduct formal, periodic staff meetings with the fiscal agent to
   address important grant administration issues as they arise.

Evaluating and Monitoring Subgrantees

As noted above, the Commission is responsible for evaluating whether subgrantees
comply with legal, reporting, financial management and grant requirements and ensuring
follow through on issues of noncompliance. Prior to February 1998, no documentation
exists to support any site visits to subgrantee locations the Commission may have
performed. Between February and December 1998, the Commission was understaffed
and experienced a significant amount of turnover. During that time, no on-site
monitoring visits occurred. Instead, the Commission relied on telephone calls and
periodic meetings with subgrantee Program Directors to address programmatic concerns
and issues.

We identified the following areas for improvement related to the evaluation and
monitoring of subgrantees.

       Semi-annual Site Visits

Beginning in program year 1998-1999 (June 1999), the Commission established a policy
to perform semi-annual site visits for each subgrantee using a standard monitoring tool.
Actual visits to subgrantee locations did not commence until November 1999. Such
visits were to include visits to program locations on a sample basis to observe Member
activities. After each visit, the site monitors were expected to notify the subgrantee of the
results of site visits, including strengths, challenges, recommendations and any necessary
follow-up requirements. However, this policy was never fully implemented as designed.

       Improved Documentation of Site-Monitoring

As noted above, the Commission developed and began using a standard site monitoring
tool to provide reasonable assurance that subgrantees were complying with federal and
grant requirements and that the review was adequately documented. However, the use of
this tool does not currently provide for adequate documentation of the sample items
selected for review, the rationale for selecting the sample items, or a provision for review
of Member timesheets and expenses. Improved documentation of procedures performed
during on-site monitoring ensures that procedures are performed consistently across all
subgrantees and that significant areas of internal control and compliance, such as
                                                                                 Exhibit D

Findings and Recommendations from the Pre-Audit Survey
of the Oregon Community Service Commission
(Extracted from OIG Audit Report No. 01-03)

Member time and expense reporting, are addressed. Additionally, it enables Commission
management to evaluate the monitor's rationale and place greater reliance on the
conclusions reached.

       Review of Subgrantee OMB Circular A-133 and Other Reports

OMB Circular A-133 Compliance Supplement, April 1999, Part 6 - Internal Control
suggests that review of and follow-up on subgrantees' audit reports is a key component of
a program to monitor subgrantees' compliance with federal grant requirements. In 1999,
the Commission formally implemented procedures to require receipt and review of OMB
Circular A-133 or other audit reports. Prior to 1999, there is no evidence that
subgrantees' reports were routinely requested or that they were reviewed by the
Commission. Without adequate review and follow-up on matters contained in OMB
Circular A-1 33 audit reports, control weaknesses or instances of material noncompliance
noted and disclosed in such audit reports may continue to occur and not be corrected
timely.

       Follow-up Procedures on Deficiencies Noted during Site Monitoring Visits

The Commission began perfonning site monitoring visits in November 1999. For two of
four subgrantee files reviewed for evidence of site monitoring since that date, there is no
documentation of the follow-up of deficiencies noted during those visits.

Recommendations

We recommend the Commission focus on measures for improving the effectiveness of its
evaluation and monitoring of subgrantees as follows:

   Develop and implement procedures to document the review and testing of
   subgrantees' Member timesheets and expense documentation during financial site
   visits. These procedures should require identification of selection criteria and items
   selected for testing.

    Continue developing its OMB Circular A-1 33 audit report tracking database to
    provide reasonable assurance that the Commission receives and reviews the audit
    reports from all subgrantees subject to such audits, and follows up on any deficiencies
    noted in these reports in a timely manner.

    Obtain and review the most recent OMB Circular A-1 33 reports as a part of the
    compliance site visits for all subgrantees. If an OMB Circular A-133 audit is in
    process when the site visits occurs, the Commission should note this in an
    "outstanding reports" listing, which should be reviewed periodically during the year
    to ensure all OMB Circular A-133 reports are obtained and reviewed timely.
                                                                              Exhibit D

Findings and Recommendations from the Pre-Audit Survey
of the Oregon Community Service Commission
(Extracted from OIG Audit Report No. 01-03)



   Develop written policies and implement procedures to ensure that adequate corrective
   actions are taken in a timely manner when deficiencies are noted either by the
   Commission during site visits, or during review of OMB Circular A-1 33 reports.

   Enforce current procedures requiring semi-annual site monitoring.

Providing Technical Assistance

Annually, the Commission receives grant funds to provide technical assistance to its
subgrantees. Procedures are in place at the Commission to (1) identify training needs of
subgrantees through site visits, training evaluations, and need and resource assessment
surveys; (2) notify subgrantees of training programs; and (3) provide needed training to
subgrantees. The Commission currently
uses the services of Northwest Regional Educational Labs (NWREL) to provide training
to Commission and subgrantee personnel. We identified no significant areas for
improvement in this area.

However, in conversations with the Executive Director of the Commission, we
understand the Commission is considering severing its relationship with NWREL and
developing its own internal training program, in an effort to reduce costs. We
recommend the Commission determine the impact such a decision may have on the
already strained resources of the Commission staff. Before such action is taken, we also
recommend focused attention be given to developing a an ideal course curriculum for
Commission staff and subgrantees.




This report can be obtained in its entirety from CNS OIG. Please call (202) 606-5000
extension 390 to request a copy.
                 APPENDIX A


OREGON COMMUNITY SERVICE COMMISSION RESPONSE
                                                                                            Appendix A


             OREGON COMMUNITY SERVICE COMMISSION




Ms. Luise JoFdan, Inspector Oenenri
Corporation fir N a t i d Service
1201 New York Avenue N.W.
Washington, D.C. 20525

Dear Ms.Jordan,
Enclosed please find the response of the Oregon Commission to the Incurred Cost Audit Report
which was finwaFded to us for cummenton August 12,2001.
Thanlr;you for including our response as Appendix A when the final report is published.

If you need any fucher information, please csll me at the telephone number listed below.




                                                                            OFFICE Of THE




       PSUICSC 369 NH PO BOX 751 Portland, OR 97207-0751 (503) 725-5903 Toll Free 888-353-4483
          Fax (503) 725-8335 TTD 1-800-735-2900 (TTY) Voice 1-800-735-1232 ernail: ocsc@~dx.edu
                                                                                    Appendix A
                     Oregon Community Service Commission Response


September 11,2001

Inspector General
Corporation for National and Community Service

The members of the Oregon Community Service Commission, as well as its staff, welcome the
opportunity to respond to the Incurred Cost Audit report prepared for your office by KPMG and
forwarded to us for comment on August 13,2001.

General Response
The Commission is pleased that its systems have grown stronger over the past three years. We
have recently completed a strategic reinvention of our financial administration procedures. We
are puzzled why this report does not recognize all of the significant improvements that were
shared with the audit team. There is a definite inconsistency between the Pre-Audit Survey
report issued by KPMG in August, 2000, and this report. Many of the systems recommended in
the current report had been fully developed and implemented prior to the pre-audit survey. We
know that the Incurred Cost Audit team had access to, and used those work papers to conduct our
audit. In addition to the materials we provided to KPMG as part of the pre-audit survey, multiple
copies of our policy and procedure manuals were shared with the audit team over the eight
months during which this audit was conducted.

While we believe that some portions of the report reflect the continuous improvements in the
grant management systems that we have established and implemented over the past three years,
we are generally concerned about the inaccurate findings that are included in the document. We
believe that many of these inaccuracies can be directly traced to the substantial changes in
KPMG audit personnel assigned to conduct the audit.

These changes resulted in generally weak communications between the audit firm and the
Commission staff. We can readily document multiple occasions during which KPMG requested
duplicate information from our programs. We attribute these requests to the inconsistencies in
staff assignment, and more importantly, inconsistent staff orientation by KPMG to the work that
had been previously completed by other members of the firm.

The audit team arrived in Oregon unprepared to conduct the audit. No specific protocols had
been established by KPMG prior to their arrival. During the first week, auditors spent time with
three of the ten programs that were ultimately reviewed, admittedly establishing their operating
procedures and determining how the future reviews would be conducted. This left the initial
three programs at a disadvantage, since their staffs were required to perform many hours of
additional work as the audit team refined its processes in future weeks. Had the audit team been
fully prepared when it began its assignment, our programs would not have been subjected to the
many additional requests for information that resulted.

In addition, the lack of planning resulted in no advance notice to any of our programs regarding
information that would be required by the auditors. This notification is a generally accepted
                                                                                      Appendix A
                      Oregon Community Service Commission Response


practice that organizations expect during the course of an audit. In all instances, the lack of
advance notification slowed the process, and resulted in the numerous requests for duplicate
information which were received after the departure of the audit team.

Of even greater concern is the unwillingness of the audit team to accept documentation that was
specifically requested of one program by the Inspector General during the June 26,2001 exit
interview. The exit interview was the first notice that most of our programs received that there
would be significant findings. In most instances, we are still unaware of the specific deficiencies
in much of the information provided at the request of the auditors. Again, this is a different
standard than that at which most of our programs have operated with their own independent
auditors. We believe that there should be a clear understanding of the preliminary audit results
before an audit team leaves a program site. During future audits, it should not be acceptable for
programs to be uninformed of the magnitude of the findings until arriving at the exit interview.

In addition to the concerns over some of the audit methodologies, we have also documented
several mathematical errors in the work papers used by KPMG to prepare this report. Specific
information on these errors has been provided in writing to the Corporation for National Service.
We can also provide documentation of errors in identifying funding sources that are included in
the report. These are additional indicators of the problems we encountered in attempting to work
professionally with the audit firm.

Lastly, we express our concern that for many of the findings, we are unable to determine the
basis for the recommendations.

Specific Response
Material Weaknesses

1. Grants and Program Management

Audit Recommendation:

We recommend that the Commission take the following actions to improve its grants and
program management process.

      Establish a comprehensive program to monitor the programmatic and financial activity of
all subgrantees to ensure adequate attention is given to compliance issues which may not be
addressed even if a Single Audit in accordance with OMB Circular A-133, Audits of States,
Local Governments, and Non-profit Organizations has been performed for any specific
subgrantee. Subgrantee monitoring activities should include site visits performed on a periodic
basis, the frequency of which would depend on the level of risk assessed by the Commission.

     Implement procedures to obtain and routinely review grantee Single Audit reports, where
required, and resolve identified instances of noncompliance.
                                                                                    Appendix A
                     Oregon Community Service Commission Response



Commission Response:

We disagree with both of the recommendations, since the recommended systems were fully
developed and implemented prior to the pre-audit survey conducted by KPMG in June, 2000.

In fact, the Commission's A-133 Audit Review Data Base report was used as the basis for
scheduling all audit visits during the Incurred Cost Audit. Every member of the audit team
received a copy of the report, which provides complete information on the status and findings of
each A-133 report, as well as contact information for each of the programs.

Recognition of our systems is included in the he-Audit Survey report. In addition, the audit
team was provided with multiple copies of our policy and procedure manuals, which clearly
document the prior implementation of the policies.


2. Financial Management and Reporting

Audit Recommendation:

We recommend that OCSC prepare a comprehensive set of policies and procedures to ensure that
day-to-day procedures are documented to guide personnel in required tasks. Policies and
procedures should address all aspects of the Commission's financial activities. Specifically, the
accounting, reporting and monitoring of funds received and disbursed by the Commission.
Procedures should also encompass requirements for review and monitoring of the financial
activities of subgrantees. These procedures once developed should be immediately
implemented.

Commission Response:

Again, we disagree with the recommendation, since the recommended policies and procedures
were established previously and have been utilized regularly for the past two years. These
procedures were reviewed by the KPMG team that conducted the he-Audit Survey. Any
additions that were recommended during the pre-audit survey were completed and included in
the policies and procedures manual currently utilized by the Commission. These revisions were
shared with the Incurred Cost audit team when we released the 2000-2001 manuals to them for
review.

AmeriCor~sGrant

A. Compliance Findings Resulting in Questioned Costs

The Commission expresses our concern over the inconsistent methods used to determine some of
the questioned costs. Although the information on specific stipend and payroll amounts for
members and program staff was provided to KPMG by all programs on at least two occasions,
                                                                                     Appendix A
                     Oregon Community Service Commission Response


we note in the review of the work papers that for several programs, the questioned costs are
based on estimates, rather than actual expenditures. We regret that the information provided, and
ultimately confirmed by a return visit to Oregon by KPMG personnel to review original source
documents on site, was not used in preparation of the report. This information would more
accurate reflect the questioned costs.

3. Luck of Documentation

     Eligibility Requirements

   The Commission is confused by this finding, specifically as it relates to the Central Oregon
   Community College (COCC) program. In their submission of documentation, Central
   Oregon Community College representatives followed explicit directions received at the IG's
   public meeting with granteelsub grantees on June 26, 2001. Inspector General Jordan, in
   public meeting, stated in response to questions that a certified roster of program participants
   who were also Central Oregon Community College students would constitute acceptable
   documentation of eligibility questioned in the Central Oregon Community College limited
   scope review. It was stated that COCC could respond to questioned costs by submitting a
   roster of studentlprogram participants over the COCC Registrar's notarized signature
   attesting to citizenship, high school graduation status, and age as documented in College
   records. COCC, in its response in full good faith, submitted such roster as directed. Without
   explanation, the audit team not only disallowed the information provided at the request of the
   Inspector General, but increased the findings, stating: "because of the significant number of
   exceptions noted for Central Oregon Community College, we have questioned all Member
   costs incurred for this subgrantee and all Education Awards issued by the Corporation."

Based on the specific information submitted by the program at the direct request of the Inspector
General, we question the accuracy of this total.

Audit Recommendation:

The Commission should require subgrantees to provide documented procedures to enhance and
formalize the file maintenance process currently in place. Procedures should include, where
applicable, a checklist for all required documentation, a training program for personnel who
handle Member files, and a periodic review process where selected Member files are checked for
compliance with documented procedures. In addition, the Commission should routinely test
Member file maintenance as part of its site monitoring procedures.

Commission Response:

The Commission developed and implemented a formal procedure for development of a file
maintenance process and monitoring of Member files in 1999. Changes recommended during
the pre-audit survey were immediately implemented by the Commission. This revised policy
information, along with samples of the work papers created during monitoring visits, was
                                                                                      Appendix A
                     Oregon Community Service Commission Response


provided to the audit team on more than one occasion. Therefore, we disagree with the
recommendation.

4. Documentation to support selected payments claimed under the grant was not maintained.
The Commission is confused by the decision to question costs for which original documents
were submitted to KPMG. The preliminary findings questioned a total of $9,250 in evaluation
charges. The narrative section of the final report states that evaluation costs of $6,250 are being
questioned due to lack of supporting documents. A review of the file shows that two separate
invoices, and related check requests totaling $10,000 were submitted to KPMG for review, along
with a notation that $6,000 of the total was charged to the grant. We cannot determine why only
one of the original invoices was acceptable, when two originals were included in the documents
submitted for review.
We are also concerned that an inkind gift of $3,750 to the same organization is denied, even
though original documents from the donor, as well as the official gift acknowledgement from the
program, were submitted to the auditors as proof of expenditure.
The same program also submitted an original expense report, with supporting documents, from
an employee, only to have all of the charges questioned, with no explanation. We are unable to
determine why these expenses were summarily denied.

6.     The basis of an in-kind contribution could not be determined.
The Commission disagrees with this questioned cost, since the dollar amount identified in the
report had been previously validated by the program's independent auditor and included in that
report as income when the AmeriCorps program was selected as a major program during an A-
133 audit. We believe that their independent audit report, combined with the subsequent
documentation provided to KPMG, provide adequate information to remove this questioned cost.
We are unable to determine from the report as issued why the cost was questioned.

7.     Match amounts did not agree to Financial Status Reports.
While we agree that the agency's official accounting records did not accurately reflect the match
amounts shown in the Financial Status Reports, we disagree with the decision not to accept
additional information provided by the program to KPMG for its review. The information
provided from the program records clearly demonstrates the basis for the match amounts
claimed. Commission staff review of the additional information resulted in our satisfaction that
the amount claimed had been adequately documented by the subgrantee. The audit report
indicates that the information was received by KPMG, but not accepted. Again, there is nothing
in the report to inform us as to the reason for the decision.

In the future, it is our hope that auditors will adequately communicate questions and require
additional clarifying information on a more timely basis. We believe that an ongoing dialogue
with a consistent audit team would have dramatically changed the scope of these questioned
costs.
                      APPENDIX B


CORPORATION FOR NATIONAL AND COMMUNITY SERVICE RESPONSE
                                                                                                         Appendix B
                                                              CORPORATION
                                                              FOR NATIONAL




MEMORANDUM

TO:                  Luise S. Jordan, Inspector General

THRU:                William Anderson, Deputy Chief

FROM :               Bob Torvestad, Acting Director, AmeriCo
                     Peg Rosenberry, Director, Grants

DATE:                September 12,2001                                                         .-/




SUBJECT:             Response to OIG Draft Audit Report 01-04: Audit of Corporation for National
                     and Community Service Grants Awarded to the Oregon Community Service
                     Commission


We have reviewed the draft audit report of the Oregon Community Service Commission grants.
Due to the limited timeframe for response, our comments are primarily based on information
contained in the report. Moreover, we have not yet conducted a comprehensive review nor
analyzed documentation from the Oregon Commission addressing the issues raised in the audit.
Therefore, our comments are brief and do not address every finding. We have had an
opportunity to read Oregon's September 11 response to the draft audit and hope that the final
audit substantially responds to the comments submitted by the grantee. This will assist us greatly
in the Corporation's audit resolution process. We will respond to all findings and
recommendations during the audit resolution process after the audit is issued.

 We note that there are several recommendations to the Commission to "establish policies and
 procedures" related to various functions. In most of these instances, the Commission has
 indicated it implemented the relevant policies and procedures over the past two to three years, as
 was acknowledged in the earlier Pre-audit Survey performed by KPMG. However, this audit
 report does not provide sufficient detail to determine how the existing policies need to be
 improved. The Corporation and Commission will need additional information to determine what
 corrective actions may be needed regarding the Commission's current operations.

 We also do have the following preliminary comments on some of the findings and questioned
 costs. The following comments reflect some of the discussions we have had to date with the
 Commission concerning the audit.

 Finding A3: The auditors questioned costs related to living allowances and education awards
 paid to some AmeriCorps members because "Sufficient documentation to verify that members




NATIONAL SERVICE: G E l l I N G THINGS DONE                             1201 New York Avenue, N.W. Washington, D.C. 20525
AmeriCorps   Learn and Serve America   .tbtional Senior Sen ice Corps   telephone: 202-606-5000 website: mnalionakenice.org
                                                                                       Appendix B

met eligibility requirements was not maintained." One of the documents that auditors were
looking for, "date of high school diploma or equivalent certificate, if attained," was not readily
available in the records of the Central Oregon Community College AmeriCorps program. As a
result, KPMG has questioned living allowance and education awards related to COCC. We note
that the statutory restriction to using the education award greatly diminishes-if not eliminates-
any risk in this regard. Almost all members use the education award to pay the cost of
attendance at a Title IV institution of higher education or to repay student loans used to cover
such costs. Title IV institutions of higher education are required to document high school
diploma (or equivalent) attainment for all students in attendance. Therefore, requiring grantees
to duplicate this documentation is not necessary to assure compliance with the statutory
eligibility requirements related to high school diplomas. Indeed, in this particular matter, the
community college had such documentation, rendering the issue moot for the purposes of this
audit.

Finding A2: Documentation to support AmeriCorps members' terms of service was not
maintained, resulting in questioned costs.

Response: The Commission's response indicates that the member documentation exists, but
was not readily available at the time of the audit. The Commission is working with its sub-
grantees to retrieve additional supporting documentation such as timesheets, W-2 forms,
attendance schedules, training rosters, and other documentation to support maintenance of
appropriate records. This supporting documentation, along with information in SPAN, will be
reviewed and analyzed during the formal audit resolution process to determine if adequate
documentation was maintained on members.

Finding B9: The auditors stated that documentation to support that an orientation was conducted
for enrolled members was not maintained by certain subgrantees. They reviewed the member
files and determined that the documentation did not exist in the file, citing the Corporation's
provisions that require an orientation.

Response: The Corporation's provisions do not require that each member's file include
documentation that he or she received an orientation to the program. The program needs to
conduct an orientation and can document it in several ways. That evidence could include the
agenda for the orientation session, a member handbook, or orientation and training materials.

Finding 6: The audit report stated that the value of an in-kind contribution could not be
determined and questioned $72,000 in match.

Response: The subgrantee, Friends of the Children, provided documentation to support the
value of the rental space. However the auditors stated they could not assess the reasonableness
of the square footage used to allocate the rent due to lack of documentation. The report is not
clear as to why the auditors did not accept the documentation, which included the square footage
used by the program and the value of the square footage.

 Grants Management Finding: The audit report noted grants management as a material
 weakness, citing the Commission's A-133 procedures as one basis for the determination. The
                                                                                     Appendix B

audit report recommends the Commission implement procedures to obtain and review grantee
Single Audit reports and resolve issues of non-compliance.

Response: The Commission has developed an A-1 33 audit database that tracks the audits,
including findings and their resolution. This database was completed in July 1999. In fact,
KPMG used the information from the database to prepare for their audit and knew that these
procedures were in place.

Finally, the Corporation agrees with the Oregon Commission that this draft report does not
reflect the improvements the Commission has made to its policies, procedures and systems over
the last three years. Beginning in 1999, the Commission began a process to put comprehensive
policies and procedures in place and worked closely with Corporation staff to review and
improve its systems. In addition to providing extensive phone technical assistance, Corporation
staff made several visits to Oregon to provide technical assistance. The Commission also
received technical assistance from the Corporation's financial management technical assistance
provider Walker and Co, LLP. The audit report contained at least seven recommendations for
the Commission to "establish policies and procedures. Yet, in every case, the Commission
already has the policies and procedures in place. The audit report would have been more
balanced if it had acknowledged that such policies and procedures were in place and described
specific ways to improve them.
              APPENDIX C


KPMG'S COMMENTS ON COMMISSION RESPONSE
                                                                                     Appendix C


                 KPMG's Comments on Commission Response

The following paragraphs present KPMG's comments on the information presented in the
Commission's general and specific responses to the findings and recommendations included in
this report. We continue to believe our findings are valid, based on the results of the incurred
cost audit performed on the costs claimed by the Commission and its subgrantees. Further, our
recommendations, once fully implemented should result in improvements to internal controls
over the operations of the Commission and those of its subgrantees.

General Response

Commission 's Response

The Commission questions why the report did not recognize all of the significant improvements
that it believes were shared with the audit team, and indicates that they believe there is an
inconsistency between the pre-audit survey report issued by KPMG in August 2000, and the
incurred cost audit report.

KPMG 's Comment

As already noted in our report, we have acknowledged that due to the short period of time
between the completion of the pre-audit survey and the commencement of the incurred cost
audit, there was insufficient time for the Commission to take all necessary corrective actions on
the matters discussed in the pre-audit survey. As a result, we did not conduct follow up reviews
and tests to confirm whether the Commission's corrective actions had been effectively
implemented. Further, the period covered by the incurred cost audit was a timeframe beginning
in January 1994 and continuing through August 2000. Therefore, all or any corrective actions
taken as a result of the pre-audit survey would have been taken subsequent to the audit period
under consideration. The findings presented in the incurred cost audit report provide a reflection
of the Commission's and its subgrantees' financial management practices prior to any of the
corrective actions being implemented. As a result, our recommendations may, in some
instances, be a repetition of those presented in the pre-audit survey.

Commission's Response

The Commission's response indicates that inaccurate findings have been presented in the report.

KPMG's Comment

To the extent the Commission provided detail to support this statement in its specific response,
we have adjusted the findings as appropriate. However, the findings presented in the report were
considered to be exceptions as a result of either the lack of documentation or inadequacy of
information/documentationthat was provided to us by the Commission or its subgrantees.
                                                                                      Appendix C



Commission 's Response

The Commission's response indicates that the audit team was unprepared to conduct the audit
and no specific protocols had been established by KPMG prior to their arrival.

KPMG 's Comment

The audit was conducted in accordance with Government Auditing Standards using the CNS
OIG's audit program for a Full Scope Incurred Cost Audit of Corporation Awards with
Subrecipients as a guide. Our audit approach had been developed prior to the conduct of the
audit, with the participation of CNS OIG and its approval. As with any audit, it is necessary for
the audit team to spend time to assess the financial systems and internal controls in existence at
each of the entities being audited, since each has its own individual financial and operational
procedures. Once this is done, the auditor is in a better position to request specific information
required to conduct the audit. The audit process at the Commission and at its subgrantee
locations was complicated by the fact that there had been several changes in employees and key
management personnel during the period under audit, and certain former subgrantees no longer
participated in or administered the AmeriCorps program. These circumstances necessarily
resulted in time spent to determine how the audit approach should be amended to accommodate
these factors.

Commission's Response

The Commission's response indicates that KPMG was unwilling to accept documentation related
to a finding for one subgrantee, which they believed met the criteria set forth by the Inspector
General during the June 26,2001, exit interview.

KPMG's Comment

At the time of the exit interview, the Commission and its subgrantees were given an additional
two weeks to provide missing documentation noted in the original findings. We adjusted a
number of findings to reflect the additional documentation provided by the Commission and
subgrantees subsequent to the exit interview. However, as it relates to the specific subgrantee
mentioned in the Commission's response, we had specifically requested that copies of supporting
documentation be provided and that the certification of a responsible official reflect the fact that
these were true copies of the original documents. A certification by itself is not considered
adequate supporting documentation for audit purposes. As a result, we continued to question the
costs related to the sample items and, due to the pervasive nature of the number of exceptions,
questioned the costs associated with all similar items. Follow-up by the Corporation will be
necessary for the ultimate resolution of this finding.
                                                                                      Appendix C



Commission's Response

The Commission's response indicates that the exit interview was the first notice that the
Commission received that there would be significant findings.

KPMG's Comment

Although no written findings were provided at the end of the audit fieldwork, preliminary
notification of the findings had been verbally communicated to both the Commission and several
subgrantees a month before the exit conference. The written findings were submitted prior to the
exit conference, and an additional two weeks were provided so that the Commission and its
subgrantees would have an opportunity to respond.

Commission's Response

The Commission's response indicates that several mathematical errors were noted in the report.

KPMG's Comment

The details of these errors have not been provided to us and therefore we are not in a position to
follow up on this comment. The amounts reported were obtained from information provided to
us by the Commission and its subgrantees during the course of our audit.

Specific Response

Commission's Response

Material Weaknesses

The Commission's response indicates it disagrees with our recommendations, since the
recommended grants and program management systems were fully developed and implemented
prior to the pre-audit survey conducted by KPMG in June, 2000.

The response also indicates the recommended financial management and reporting policies and
procedures were established and had been utilized regularly for the past two years.

KPMG's Comment

As previously discussed, our audit report covers the period January 1994 through August 3 1,
2000, and our responsibility is to report on conditions that existed based on the results of our
audit work conducted on Commission and subgrantee systems and controls in place during this
period. In preparing our report, we incorporated the results of the pre-audit survey, since there
was insufficient time for the Commission to take all necessary corrective actions on the matters
discussed in that report.
                                                                                     Appendix C



Although Commission management informed us that they have taken steps to improve its
monitoring process, corrective actions had not been fully implemented as of August 2000, which
is supported by the results of this audit and the pre-audit survey. The nature and number of
findings identified at subgrantee locations and presented in this report are a result of the
inadequate monitoring practices previously in place. Therefore, we continue to believe our
recommendations are valid. We have reworded certain of our recommendations to acknowledge
the Commission's efforts in developing procedures and controls to improve the effectiveness of
its evaluation and monitoring of its subgrantees.

The pre-audit survey identifies certain other findings related to the Commission's financial
management and reporting practices which were in the process of correction subsequent to
August 2000. We continue to believe our recommendations are valid. However, we have
reworded them to acknowledge the Commission's efforts in developing procedures and controls
to improve its financial management and reporting practices.

AmeriCorps Grant

Compliancefindings resulting in questioned costs

Commission's Response

The Commission expressed its concern over what it perceives to be inconsistent methods used to
determine some of the questioned costs.

KPMG's Comment

The questioned costs identified in the report were developed using either actual costs (in those
instances that actual costs were provided by the Commission and its subgrantees) or estimated
costs (in those instances that actual costs were not readily available). We have included
language in the report to inform the reader that estimated costs have been used in certain
instances.

Lack of documentation related to eligibility requirements

Commission's Response

The Commission indicated it was confused by this finding, specifically as it relates to the Central
Oregon Community College (COCC) program.

It also indicates that it had developed and implemented a formal procedure for development of a
file maintenance process and monitoring of Member files in 1999, and that changes
recommended during the pre-audit survey were immediately implemented by the Commission.
                                                                                     Appendix C


KPMG 's Comment

Our comment related to the COCC program finding has been provided under our comments to
the Commissions' general response. We have reworded our recommendation to acknowledge
the Commission's efforts in developing procedures and controls to improve file maintenance
practices.

Documentation to support selectedpayments claimed under the grant was not maintained.

Commission's Response

The Commission indicated it was confused as to the amount of question costs reported for
selected payments and in-kind gifts for which original documents were submitted to KPMG.

KPMG 's Comment

There was an error on our part in reporting the amount of the questioned costs. We have
changed the report to reflect the correct amount ($3,000) that is being questioned due to lack of
supporting documentation.

The remaining amounts have been questioned because the supporting documentation provided
did not agree to or was not adequate to support the total amount claimed. Our reasons for
questioning these amounts have been provided in the report.

The basis of an in-kind contribution could not be determined.

Commission's Response

The Commission indicated it disagreed with this questioned cost, since the dollar amount
identified in the report has been previously validated by the program's independent auditor.

KPMG's Comment

We have clarified our basis for questioning these amounts in the related section of the report.

Match amounts did not agree to Financial Status Reports.

Commission's Response

The Commission indicated that it agreed that the agency's official accounting records did not
accurately reflect the match amounts shown in the Financial Status Reports, but disagreed with
our decision not to accept additional information provided by the program to KPMG for its
review subsequent to the exit conference.
                                                                                      Appendix C



KPMG 's Comment

We have clarified our basis for questioning these amounts in the related section of the report.
               APPENDIX D


KPMG'S COMMENTS ON CORPORATION'S RESPONSE
                                                                                      Appendix D



                 KPMG Comments on Corporation's Response

The following paragraphs present KPMG's comments on the information presented in the
Corporation's response to the findings and recommendations included in this report, where
appropriate. Additionally, we have reworded our recommendations in the report to acknowledge
the Commission's efforts in developing procedures and controls to improve the effectiveness of
its evaluation and monitoring of its subgrantees, as well as its financial management and
reporting processes.

General

Corporation 's Response

The Corporation has requested that KPMG provide additional information to determine what
corrective actions are needed to further strengthen the relevant policies and procedures related to
various functions that were implemented by the Commission over the past two years.

KPMG's Comment

As indicated in our comments to the Commission's response, due to the short period of time
between the completion of the pre-audit survey and the commencement of the incurred cost
audit, there was insufficient time for the Commission to take all necessary corrective actions on
the matters discussed in the pre-audit survey. As a result, we did not conduct follow up reviews
and tests to confirm whether the Commission's corrective actions had been effectively
implemented.

Finding A3

Corporation's Response

The Corporation reiterated the Commission's concern over questioned costs related to the
Central Oregon Community College program.

KPMG 's Comment

See KPMG comments to the Commission's response provided as Appendix C (page C.5).
                                                                                      Appendix D



Finding B9

Corporation's Response

The Corporation indicated that the AmeriCorps provisions do not require that each member's file
include specific documentation that he or she received an orientation to the program, but that this
can be documented in a variety of ways.

KPMG 's Comment

In reviewing the information that was provided by the subgrantees, we accepted a variety of
documentation such as an agenda for the orientation, or orientation and training materials. The
subgrantees identified in the report with these exceptions represent those who did not submit any
documentation or provided inadequate documentation as support for the orientation that was
purported to have been held.

Finding 6

Corporation's Response

The Corporation's response supported the Commission's response that a subgrantee, Friends of
the Children, had provided sufficient documentation to support the value of the rental space.

KPMG 's Comment

As indicated in our report, we were unable to assess the reasonableness of the square footage
used by the program. Although some documentation was provided, it was not sufficient as
support for the square footage allocation to the AmeriCorps program.

Grants Management Finding

Corporation's Response

The Corporation indicated its support of the Cornmission's statement that it had developed an A-
133 audit database that tracks the audits, including findings and their resolution.

KPMG 's Comment

As indicated in our response to the Commission, although Commission management informed us
that they have taken steps to improve its monitoring process, corrective actions had not been
fully implemented as of August 2000, which was supported by the results of the pre-audit survey
and related findings. The nature and number of findings identified at subgrantee locations and
presented in this report are a result of the inadequate monitoring practices previously in place.
Therefore, we continue to believe our recommendations are valid.
